OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID’S AVIAN
INFLUENZA EFFORTS
AUDIT REPORT NO. 9-000-07-007-P
June 8, 2007




WASHINGTON, DC 

Office of Inspector General



June 8, 2007

MEMORANDUM

TO: 	                Director, Bureau for Global Health, Avian and Pandemic Influenza Management
                     and Response Unit, Dennis Carroll

FROM: 	              Director, Performance Audits Division, Steven H. Bernstein /s/

SUBJECT:	            Audit of USAID’s Avian Influenza Efforts (Report No. 9-000-07-007-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on our draft report and have incorporated them, where appropriate.
We have included your comments in their entirety as Appendix II.

The report contains ten recommendations intended to improve the implementation of USAID’s
avian influenza activities. Based on your comments and the documentation provided, we
consider that final action has been taken on Recommendation Nos. 7 and 9 and that
management decisions have been reached on all of the remaining recommendations. A
determination of final action for Recommendations Nos. 1 through 6, 8, and 10 will be made by
the Audit Performance and Compliance Division (M/CFO/APC) upon completion of the
proposed actions.

Again, I want to express my appreciation for the cooperation and courtesy extended to each my
staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ........................................................................................................ 1 


Background ...................................................................................................................... 3 


Audit Objective ................................................................................................................... 4 


     What progress is USAID making in conducting selected mandatory activities 

     to address the threat of avian influenza? ..................................................................... 4 


Audit Findings .................................................................................................................. 5 


     Avian Influenza Unit Made Progress in Starting and Expanding Surveillance 

     and Response Program in Indonesia.......................................................................... 7 


     Avian Influenza Unit Developed Monitoring Plan to Assess Activities ........................ 9 


     Avian Influenza Unit Should Develop Intra-Agency Agreement ................................ 10 


     Avian Influenza Unit Should Request Deobligation Reviews Periodically................. 12 


     Avian Influenza Unit Should Apply Accounting Principles Consistently .................... 14 


     Avian Influenza Unit Should Improve Commodity Stockpile Management ............... 16 


     Avian Influenza Unit Should Review Commodity Requirements............................... 19 


     Avian Influenza Unit Should Improve Emergency Shipment Timeliness................... 21 


     Avian Influenza Unit Should Improve Controls Over Commodity Transfers of 

     Ownership ................................................................................................................. 23 


Evaluation of Management Comments ....................................................................... 26 


Appendix I – Scope and Methodology ........................................................................ 30 


Appendix II – Management Comments ....................................................................... 32 


Appendix III – Global Risk of Avian Influenza Outbreaks ......................................... 42 


Appendix IV – Priority Countries for Avian Influenza Activities............................... 43 


Appendix V – Summary of Planned Funding Levels ................................................ 44 


Appendix VI – Avian Influenza Stockpile Obligations ............................................... 45 


Appendix VII – Personal Protective Equipment Distribution in China/SE Asia ...... 46

SUMMARY OF RESULTS
The Performance Audits Division of USAID’s Office of Inspector General designed this
audit to determine what progress USAID was making in conducting selected mandatory
activities to address the threat of avian influenza.

Although the Bureau for Global Health’s Avian and Pandemic Influenza Management
and Response Unit (AI Unit) has achieved some progress in conducting some of its
mandatory activities to address avian influenza, the Agency faces formidable challenges
that increase the risks that it will not be able to conduct some of its mandatory activities
in a timely manner. USAID has made notable progress in conducting some of its
mandatory activities to address the threat of avian influenza in a relatively short
timeframe since October 2005. Specifically, the AI Unit has achieved some successes in
coordinating much of its work with multiple international and national implementers to
provide avian influenza commodities, developing its first disease surveillance and
response program in Indonesia, and developing a monitoring and evaluation plan to
ensure the quality of its performance indicators. In addition, the AI Unit has reported
successes in other mandatory activities that include strengthening foreign governments’
capacity for rapid outbreak response, intensive national communications campaigns that
include the print and broadcast media, and education and training for animal and human
health professionals and volunteers.

Nevertheless, the AI Unit will need to strengthen management controls over several
aspects of its program. Specifically, the AI Unit has not established management
controls to ensure that program expectations are defined and communicated to other
accountable USAID stakeholders (see page 10); and has not been apprised of
commodity expenditures to ensure that obligations are limited to required program needs
in a timely manner, as well as has not verified financial information in its office database
to information contained in USAID’s core financial management system (see pages 12
and 14). Moreover, the AI Unit should improve its commodity stockpile management so
that appropriate protective and decontamination equipment is procured, stored, and
deployed worldwide in a timely manner (see page 16). The AI Unit has not inspected
the commodity stockpile to ensure that some dated products are available to be used to
avoid spoilage and/or waste (see page 19). In one instance, USAID has not been timely
in responding to a request for emergency commodities (see page 21). Lastly, the AI Unit
has not established sufficient management controls over its commodity transfers of
ownership (see page 23).

We have developed ten recommendations to address the above-mentioned issues. We
recommend that the AI Unit develop an intra-agency agreement to communicate and
document programmatic expectations with other USAID stakeholders (see page 12);
determine the amount of unneeded unliquidated obligations for avian influenza
commodities and deobligate what has not already been deobligated to date (see page
14); establish a schedule for conducting deobligation reviews to determine whether
unexpended obligated funds can be put to better use (see page 14); apply accounting
principles consistently to ascertain that obligations and expenditures recorded in its



                                                                                      1
office financial database agree with USAID’s core financial management system (see
page 16); ensure that accruals to its internal financial database are submitted on the
same schedule as that utilized by USAID’s core financial management system (see page
16); determine the optimal staging areas for its commodities in order to meet established
criteria (see page 19); review the commodities requirements that the office plans to use
in combating avian influenza (see page 21); review its commodity stockpile inventory to
ensure that adequate product shelf life exists and document a plan for final disposition
accordingly (see page 21); develop a strategy for the deployment of emergency avian
influenza commodities within established timeframes (see page 23); and develop
procedures to adequately document transfers of ownership of avian influenza
commodities (see page 25).




                                                                                    2
BACKGROUND

Avian influenza, “bird flu,” and H5N1 Influenza A virus are commonly used names for the
highly contagious viral disease that afflicts birds. Since the reemergence of the disease
in Southeast Asia in 2003, it has spread across Asia to Europe and Africa, as shown in
Appendix III. As a result, between February and April 2006, the number of countries
reporting bird flu in animals was more than double the number of countries reporting
similar cases between 2003 and 2005. More than 220 million birds have died from the
disease, either directly from infection or indirectly from culling efforts for containing and
preventing further spread of bird flu. This situation not only threatens the livelihoods of
poultry farmers, but also economic growth and overall sustainable development.

Because of the rapid spread of bird flu, concern is growing that if the virus evolves into a
form that can be transmitted efficiently between humans, then the result could be a
global human pandemic with the potential to kill millions of people. Since 2003, animal
outbreaks have been reported in 55 countries. In 11 countries, officials have confirmed
274 human cases, 61 percent of which have been fatal. Given the rapid spread of bird
flu and its effect on the international community, the U.S. Government developed an
Implementation Plan for the National Strategy for Pandemic Influenza (the Plan) in May
2006 to address the threat of pandemic influenza.

The Plan identifies ten major objectives with specific or mandatory activities
internationally, in which nine U.S. Government agencies, including USAID, are
responsible to achieve within 6 to 18 months from the date that the Plan was published.
USAID, which plays a critical role in establishing a bridge between the human-health and
animal-health sectors to ensure a comprehensive international response to the threat of
bird flu, has a budget of more than $191 million1 to be used for its bird flu activities.
Within The Plan, USAID is a responsible primary agency for activities that include the
following:

    •	 Develop communications campaign networks to increase public awareness;
    •	 Disseminate information on animal vaccine efficacy and application strategies;
       and assist other countries in establishing national prevention and response
       plans;
    •	 Design a model compensation plan and improve animal diagnostic laboratory
       capacity, ensuring that all priority countries have access to laboratories for
       screening bird flu specimens to confirm diagnoses;
    •	 Expand animal surveillance in priority countries;
    •	 Support animal health activities;
    •	 Ensure that priority countries have rapid access to assessment and response
       teams;
    •	 Ensure that priority countries receive deployment assistance; and

1
 USAID received three appropriations. These appropriations included $131.5 million from an
emergency supplemental appropriation in December 2005; $30 million in a June 2006
supplemental appropriation; and $10 million from an emergency supplemental appropriation for
Asian Tsunami relief. In addition, USAID reprogrammed about $13.4 million from other Agency
programs and the Department of State provided $6.3 million to USAID from its FY 2005 Tsunami
Relief and Reconstruction Funds.


                                                                                       3
    •	 Document technical assistance rendered.

Established in October 2005 at USAID, the Bureau for Global Health’s Avian and
Pandemic Influenza Management and Response Unit (AI Unit), is responsible for the
management and oversight of USAID’s bird flu activities by providing direct technical and
program support to regional bureaus and field missions. As of December 2006, USAID's
total budget for bird flu activities has been $191 million to be used for (1) commodities,
(2) surveillance (both animal and human), (3) response (both animal and human), (4)
communications, and (5) preparedness activities in the 19 priority countries as well as
other countries around the world.2 In addition, USAID’s Office of Foreign Disaster
Assistance (OFDA) has bird flu-related responsibilities. When the U.S. Congress
appropriated about $131.5 million in supplemental funding, this funding included about
$56.3 million that was earmarked within the International Disaster and Famine
Assistance (IDFA) account for the “pre-positioning and deployment” of necessary
commodities to combat bird flu in FY 2006.3 In accordance with this legislation, OFDA is
responsible for managing and implementing IDFA funds, which includes coordination
with the AI Unit to develop and deploy a commodity stockpile.

AUDIT OBJECTIVE
As a part of its annual plan, the Office of Inspector General’s Office of Performance
Audits Division conducted this audit as the first audit of USAID’s avian influenza
activities. The audit was designed to answer the following audit objective:

    •	 What progress is USAID making in conducting selected mandatory activities to
       address the threat of avian influenza?

Appendix I includes the details of the audit's scope and methodology.




2
 The 19 priority countries are listed in Appendix IV.
3
  Of the $56.3 million appropriated for commodities, $53.8 million had been obligated at
December 11, 2006. These obligations are detailed in Appendix VI.


                                                                                    4
AUDIT FINDINGS

As of February 21, 2007, the AI Unit has reported some notable progress in some of its
mandatory activities designed to ensure timely and reliable reporting of suspected bird
flu outbreaks that will facilitate more rapid and effective response in 54 countries and
regional programs globally. These mandatory activities include such things as improving
early warning capacity and bird surveillance, strengthening foreign governments’
capacity for rapid outbreak response, supporting intensive national communications
campaigns that include the print and broadcast media, and educating and training
animal and human health professionals and volunteers. While nine U.S. Government
agencies have responsibilities managing and overseeing some federally-mandated bird
flu activities internationally, USAID’s Bureau for Global Health’s Avian and Pandemic
Influenza Management and Response Unit (AI Unit) has been responsible for providing
direct technical and program support to the regional and field missions abroad.
Specifically, the AI Unit’s worldwide responsibilities include mandatory activities in the
areas of (1) commodities, (2) surveillance (both animal and human), (3) response (both
animal and human), (4) communications, and (5) preparedness. Our audit focused on
commodities, since this represented USAID’s largest commitment of bird flu funds. In
Indonesia, which has experienced the highest number of fatalities attributable to bird flu,
our audit included mandatory surveillance and response activities. The audit found that
the AI Unit has made progress in coordinating much of its work with multiple
international and national implementers to provide bird flu commodities, establishing a
surveillance and response program in Indonesia, and developing a monitoring and
evaluation plan to ensure the quality of its performance indicators.

Although USAID has made some notable progress in rapidly implementing mandatory
activities to address the threat of bird flu in specific countries globally, the AI Unit has not
established sufficient management controls over various program activities to ensure
that the Agency will conduct its mandatory activities in both an efficient and a timely
manner. Part of the difficulties that the AI Unit has experienced are directly attributable
to USAID’s use of a participating agency program agreement (PAPA) implemented by
USAID’s Office of Foreign Disaster Assistance (OFDA) for certain bird flu activities. A
PAPA, unlike a contract, allows another U.S. Government agency to implement a
defined program with relatively little day-to-day direction or supervision from USAID.
Specifically, the AI Unit has not established management controls to ensure that
program expectations are defined and communicated to other accountable USAID
stakeholders. In this regard, the AI Unit has not developed an intra-agency agreement
to maximize its program oversight over activities to be accomplished through its use of a
pre-existing agreement administered by the Office of Foreign Disaster Assistance. In
addition, the AI Unit has not fulfilled its basic fiduciary responsibilities for reviewing
expenditure reports to ensure that obligations are limited to required program needs.
For example, as of December 2006, approximately $19 million obligated for commodities
has not been expended that could have been deobligated and put to better use for
unfunded avian influenza activities that were needed. In addition, AI Unit officials did not
verify financial information in its office database against information contained in
USAID’s core financial management system to ensure that accounting principles were
applied consistently to present the most accurate up-to-date financial information.




                                                                                          5
To accomplish much of USAID’s work, OFDA, operating on behalf of the AI Unit,
modified a pre-existing agreement with another federal agency to procure, store, and
ship the bird flu commodities. Although modifications to the agreement documented the
actions required, weak management controls, the form of the pre-existing agreement,
and the lack of transparent communication between the two offices involved have
hindered effective stockpile management, the timeliness of an emergency shipment,
transfers of commodity ownership, and a thorough review of the commodity stockpile
requirements.

Since October 2005, USAID has budgeted approximately $191 million to conduct
activities in five key areas that include stockpiling non-medical commodities, surveillance
(both animal and human), response (both animal and human), communications, and
preparedness as illustrated in Appendix V. Of the total amount budgeted at USAID,
OFDA, working on behalf of the AI Unit, has incurred the single largest commitment for
the procurement of commodities and logistical support activities valued at approximately
$56.3 million. These commodities include such items as protective clothing and
decontamination equipment that is to be used by USAID implementers overseas to
combat the spread of the bird flu virus.

Although USAID’s largest obligation of appropriated funds was for bird flu commodities
that included 1.5 million personal protective equipment (PPE) kits, AI Unit managers
have not developed a deployment schedule to transfer the commodities from a stateside
warehouse to regional stockpile warehouses overseas, as originally planned. In fact,
USAID has only shipped about 250,000 PPE kits and maintained an inventory of about
1.3 million PPEs that was relocated in December 2006.

The AI Unit has achieved successes in coordinating much of its work with multiple
international and national implementers, as well as continuing the development of a
monitoring and evaluation plan to ensure the quality of its performance indicators.
However, many of USAID’s efforts may be diminished because of the lack of strong
political commitment abroad as well as the lack of funding to compensate poultry
farmers who suffer losses due to the bird flu virus.

The following nine sections address in more detail USAID’s successes and challenges in
carrying out its bird flu activities. The first two sections discuss some of the notable
successes that USAID has achieved in implementing a disease surveillance and
response program and developing a monitoring and evaluation plan for assessing its
bird flu activities. The last seven sections address some of the challenges that USAID
has faced in its bird flu efforts, most prominently in managing the commodity stockpile.
The AI Unit expects that most of these challenges will be met with the recent award of a
task order to a new contractor for managing the commodity stockpile and providing the
necessary informational and logistical support.




                                                                                     6
Avian Influenza Unit Made
Progress in Starting and
Expanding Surveillance and
Response Program in Indonesia
In May 2006, the U.S. Homeland Security Council’s Implementation Plan for the National
Strategy for Pandemic Influenza established USAID as a lead U.S. Government agency
for helping design a comprehensive program for bird flu containment, which included a
program for compensation and poultry vaccination, within 6 to 18 months. In Indonesia,
USAID funded a $1.5 million grant to the United Nations’ Food and Agriculture
Organization (FAO) to implement a pilot animal sector early warning surveillance and
rapid response project in 12 districts on the island of Java in October 2005. USAID
expanded the project during FY 2006 to cover 159 districts encompassing the entire
islands of Java, Bali, and two provinces on the island of Sumatra at an estimated cost of
$4 million. Although the Governments of Japan and Australia also contributed to the
project, the U.S. Government funded approximately two-thirds of the overall project cost.

To implement the pilot project and improve upon the Government of Indonesia (GOI)
animal containment strategy, USAID/Indonesia works in collaboration with the World
Bank, the FAO, and other implementers. In this regard, the Mission provided personal
protective equipment and decontamination kits to be used in the project for surveillance
and response activities.

As one of the AI Unit’s major achievements in Southeast Asia, the AI Unit, through
USAID/Indonesia, has developed and implemented the first early warning system within
USAID called the Participatory Disease Surveillance/Participatory Disease Response
Program (PDS/R). USAID/Indonesia relies on the PDS/R to serve as a mechanism to
obtain initial notifications from backyard poultry producers to track and respond to
suspected bird flu outbreaks.

In Indonesia, the PDS/R is carried out by two-person teams. The teams’ actions are the
first step in determining whether the suspect poultry is infected with the bird flu virus.
Initially, the Participatory Disease Surveillance (PDS) team responds to farmers who
have reported suspected outbreaks by conducting interviews with the farmer and the
farmer’s family members for obtaining pertinent data to help assess the likelihood that
the suspected outbreak is due to the bird flu virus. During the surveillance, the team
maps the area of the suspected outbreak using a hand-held global positioning system
device, and attempts to determine the source and the current location of the infected
poultry. If the suspect poultry is available for diagnostic testing, the team will extract a
fecal sample from a sick or dead bird to test for the Influenza A virus using a rapid
antigen test kit.4 If a bird tests positive for the influenza A virus in a geographic location
where there has been high poultry mortality, the PDS team confirms a probable bird flu
event.



4
 Influenza viruses are grouped into three types – A, B, and C. The H5N1 virus, or “bird flu,” is a
subtype of the Influenza A virus. Therefore, if the suspected poultry tests negative for Influenza
A, it does not have bird flu.


                                                                                            7
AI Unit photo from FAO showing chickens with pale and droopy combs. These birds are suffering
from severe depression in an acute phase of the virus.

After the PDS team completes its work, they notify a Participatory Disease Response
(PDR) team that is requested to respond to the outbreak area within 24 hours of the
confirmation. The PDR has worked well in Indonesia in controlling active outbreaks when
the community has agreed or consented to using standard operating procedures that
require a three-ringed response strategy. First, the PDR team recommends that the
farmers begin “focal culling.” Focal culling means identifying, destroying, and removing
only those birds that are sick and infected or those birds that have had contact with the
sick or infected birds. A critical component of focal culling is that it be accompanied by
immediate financial compensation to affected backyard poultry producers. Secondly, as
the next ring of the strategy, the PDR team recommends increased biosecurity measures,
such as caging birds and segregating newly-purchased chicks from the existing flock.
Lastly, as the third ring of the strategy, the PDR team recommends vaccinating the entire
flock of birds, which would be performed by a trained community member. Considering
the importance of immediate compensation in the overall PDS/R strategy, focal culling
without immediate compensation is estimated to occur in few instances in the country of
Indonesia – only about 15 percent of the time – according to a best-case estimate of one
FAO representative.

While the PDS/R Program has been successful in selected regions within Indonesia,
USAID/Indonesia officials and other stakeholders have not finalized a compensation
program document. USAID officials expect that the plan will include focal culling with
immediate compensation. According to a Mission official, the GOI strategy has focused
on poultry vaccination without compensating affected backyard farmers because the GOI
lacks funds for this purpose. To address this issue, USAID, the World Bank, FAO, and
the GOI are developing a pilot project to support full funding of compensation and
vaccination in several pilot districts. Until the issue of compensation is resolved,
according to a U.S. Government official, the transition from surveillance to response to
eradicate the bird flu virus will remain challenging.




                                                                                       8

In order for USAID and its stakeholders to be successful in efforts to eradicate the bird
flu virus in affected countries, backyard farmers will need to receive immediate
compensation for poultry losses resulting from bird flu. Inasmuch as a model
compensation program has not been implemented in Indonesia as of March 2007 and
since the GOI has only provided limited compensation to backyard poultry farmers who
suffer losses due to bird flu, it is doubtful that the U.S. Government program can be
timely in its efforts to eradicate the disease locally in the near future. Major obstacles
and lack of strong political commitment at the central and local levels of government
within the region continue to limit the progress of optimistic stakeholders. To be
responsive as well as to achieve its mandate, USAID will need to continue its support in
partnerships with other stakeholders who are focused on immediate compensation. To
this end, USAID/Indonesia is actively involved in supporting a partnership with the World
Bank that is planned to include focal culling with immediate compensation.

Avian Influenza Unit Developed
Monitoring Plan to Assess
Activities
The AI Unit has been successful in developing a monitoring and evaluation plan that is
being used by USAID regional and field missions to assess the effectiveness of various
bird flu activities. The AI Unit and the Regional Development Mission Asia (RDMA) in
Southeast Asia are continuing to refine a regional monitoring and evaluation (M&E) plan
that uses performance indicators for assessing USAID’s progress in conducting its bird
flu activities, in accordance with USAID Performance Management Plan guidance.
Particularly, the AI Unit plans to gather data for assessment every three months. The
monitoring and evaluation plan goes beyond gathering and reporting on data sets that
exist in the Implementation Plan for the National Strategy for Pandemic Influenza and is
designed to help the Agency track its investments and measure progress towards
establishing successful bird flu prevention and control measures. AI Unit officials believe
that data collection on the performance indicators will help USAID managers assess the
progress of its activities in achieving U.S. Government and USAID goals on a continuing
basis.

In November 2006, the AI Unit revised its draft monitoring and evaluation plan and
provided it to USAID regional and field missions, about five months after the National
Implementation Plan was published. Most noteworthy at the RDMA, local staff reviewed
the draft monitoring and evaluation plan with local stakeholders for applicability and
feasibility, as well as data availability. The RDMA efforts have helped to identify
appropriate sources of information for some of the bird flu activity data to be collected as
well as identify data limitations. With the assistance of its partners in a collaborative
effort, the RDMA staff formed a bird flu monitoring and evaluation technical working
group. This RDMA group developed a strategic framework of bird flu activities as well as
a list of potential indicators to monitor country-level bird flu activities. Using the bird flu
data indicators, the RDMA group is reviewing the data for appropriateness to ensure that
required or requested information can be collected for analyses, and will satisfy reporting
requirements. What the RDMA staff found, in two data collection cycles, is that some of
its partners did not receive regular information by which to provide sufficiently accurate
data, either because host countries did not have this data or because the data was
deemed too sensitive to share. Moreover, some of the implementing partners will not



                                                                                         9
have access to baseline data since some countries do not collect baseline data
necessary for quantitative analyses.

Specifically, since the USAID bird flu program is in its infancy, the RDMA bird flu
monitoring and evaluation working group has reviewed specific indicators to determine
whether some of its countries collect specific information routinely, whether the
information will be readily available and accessible, and whether the appropriate
information sources are sought. By coordinating with a technical working group, the
RDMA staff and its partners have developed both indicator definitions and data
collection procedures that will permit the team to collect data that it can use to measure
program progress as well as to compare actual results against what is planned over
specific timeframes. AI Unit officials plan to standardize the RDMA definitions and data
collection procedures for use at other USAID field missions, and use the information
obtained to track the progress of its bird flu activities worldwide.

Avian Influenza Unit Should
Develop Intra-Agency
Agreement

  Summary: USAID policy stipulates that management control activities should
  include, among other things, reviews by management at the functional or activity
  level to ensure that management directives are carried out in ways that make them
  effective and efficient. Although the AI Unit used an agreement with another federal
  agency that was implemented by a separate USAID office to procure and ship
  commodities, USAID officials did not exercise sufficient oversight over its program
  activities. This occurred, in large part, because the AI Unit used an agreement with
  a U.S. Government agency in which another USAID office has direct day-to-day
  management responsibilities. Consequently, AI Unit officials were not sufficiently
  apprised of activities that required their consultation before action was taken.

ADS 596.3.1c, “Establishing Management Controls,” stipulates that management control
activities should include, among other things, reviews by management at the functional
or activity level to ensure that management directives are carried out in order to be
effective and efficient.

In 2006, the AI Unit used a pre-existing participating agency program agreement
(PAPA) implemented by USAID’s Office of Foreign Disaster Assistance (OFDA) for
certain bird flu activities. As opposed to a contract, which allows USAID to direct the
manner in which the contractor accomplishes the scope of work within the existing terms
and conditions of the instrument, a PAPA allows for another U.S. Governmental agency
to implement a defined program with relatively little day-to-day direction or supervision
from USAID. OFDA, working on behalf of the AI Unit, authorized three modifications
to the PAPA that would allow the Department of Health and Human Services’ Federal
Occupational Health (FOH) component to, among other things, procure and ship bird flu
commodities. According to AI Unit officials, there was an emphasis on using pre-existing
platforms in order to be fast and flexible in responding to the threat of bird flu. This
emphasis, combined with the appropriation of funds into the International Disaster and




                                                                                   10 

Famine Assistance account that OFDA manages, led to the partnership between the AI
Unit, OFDA, and FOH.

Prior to 2006, OFDA assigned a Cognizant Technical Officer (CTO) to oversee the
activities conducted under the PAPA. The CTO helps to manage the formal relationship
between USAID and an award recipient to ensure that the terms and conditions of an
acquisition and assistance instrument are accomplished both administratively and
financially. With a formal designation, the CTO can perform certain contract
administrative functions such as reviewing and approving invoices, as well as issuing
written interpretation of contract technical requirements. At the time when USAID began
expanding its capacity to conduct its bird flu activities, USAID officials exercised minimal
oversight over the modifications to the original PAPA that included requirements for FOH
to procure and ship bird flu commodities. AI Unit managers relied on the OFDA staff
who served as CTO to both communicate its requirements directly to FOH and to keep
the AI Unit informed of any actions undertaken. However, since the structure of the
PAPA means there is little day-to-day supervision from USAID, the CTO relied on the
technical expertise of FOH, as the participating agency responsible for ultimate
management decisions within the scope of the modifications to the PAPA. As a result,
AI Unit managers stated that often they were not apprised of some activities that may
have required consultation and agreement before action was taken.

For example, FOH, with OFDA concurrence, made a management decision that
illustrates the AI Unit officials’ concerns. In a task order under Modification 2 of the
PAPA, FOH was required to procure commodities to be used in the bird flu
decontamination kits. A decontamination kit included, among other things, a backpack
sprayer.     According to one AI Unit official, the original specifications for the
decontamination kit were based on consultations with various technical organizations
and ultimately included a 2.25-gallon backpack sprayer. While the specification for a
2.25-gallon backpack sprayer was transmitted to OFDA, in writing, in April 2006, the task
order included in the PAPA indicated that either two one-gallon sprayers or one two-
gallon sprayer could be used in the decontamination kit. FOH officials stated that, at the
time of purchase, a supplier could not provide sufficient quantities of the 15,470 2.25
gallon sprayers needed to fill the USAID order. Therefore, FOH made a management
decision and ordered a sufficient quantity or 15,470 one-gallon sprayers and 7,735 2.25
gallon sprayers to complete the USAID inventory. Moreover, according to FOH, OFDA
officials agreed to this change and did not consult with the AI Unit officials before
ordering the split shipment of one- and two-gallon sprayers.

AI Unit staff objected to the smaller sprayers for technical reasons and requested that
further changes in commodity technical specifications not be made without approval
from the AI Unit. While OFDA and AI Unit officials disagreed about the utility of the
15,470 one-gallon sprayers, valued at approximately $266,000, for bird flu
decontamination purposes, the AI Unit is attempting to find an appropriate role for the
one-gallon sprayers in order to avoid a financial loss to the U.S. Government.
Consequently, the AI Unit plans to order additional 2.25-gallon sprayers to complete its
required inventory.

Entering into a pre-existing agreement can pose problems when the control of activities
rests within a separate office with different activities as well as priorities. Because
USAID managers use a PAPA in which little day-to-day management is customary,
misunderstandings can and will occur during operations and in conducting program


                                                                                     11 

activities. These misunderstandings can be compounded when communication is
unclear and expectations are not documented. When the design of an agreement
involves multiple office interaction and cooperation, a formal intra-agency agreement
helps to document expectations, deliverables, target dates for specific activity
completion, etc. To alleviate any ambiguities about expectations, opportunities for goal
achievement can be maximized if expectations are documented, agreed upon and
understood by all offices responsible for conducting program activities.

   Recommendation No. 1:         We recommend that USAID’s Bureau for Global
   Health’s Avian and Pandemic Influenza Management and Response Unit
   develop a written intra-agency agreement with other USAID offices responsible
   for executing bird flu programmatic activities.

Avian Influenza Unit Should
Request Deobligation Reviews
Periodically

  Summary: USAID policy stipulates that unexpended obligated balances must be
  monitored to ensure that the level of funding is consistent with Agency funding
  guidelines and that balances are deobligated when no longer needed for the
  purposes for which they were originally obligated. In December 2006, staff with
  bird flu oversight responsibilities determined that approximately $19 million in
  financial obligations for planned bird flu expenses could be deobligated and put to
  better use. However, AI Unit managers did not request that OFDA deobligate the
  funds in a timely manner because the managers were not aware that unexpended
  obligated balances existed that could have been used for other planned, but
  unfunded, bird flu activities. As a result, decision makers did not have an accurate
  indication of realistic funding requirements for the continuance of USAID’s bird flu
  program.

According to the USAID General Notice establishing the AI Unit in October 2005, the
Unit was formed to provide “day-to-day management and oversight of the Agency’s AI
activities.” As such, an integral part of this Agency-wide oversight includes oversight of
USAID’s avian influenza-related obligations. ADS 621.3.12, “Review of Unexpended
Obligated Balances or a Section 1311 Review”, stipulates that unexpended obligated
balances must be monitored to ensure that the level of funding is consistent with Agency
funding guidelines and that balances are deobligated when no longer needed for the
purposes for which they were originally obligated. To that end, managers are required to
continuously review the status of obligated funds and request deobligations when a
determination is made that the funds are no longer needed to accomplish activity
objectives, especially when the amount to be recovered exceeds $100,000.

As of December 2006, OFDA, with the assistance of Federal Occupational Health
(FOH), a component of the U.S. Public Health Service within the U.S. Department of
Health and Human Services, determined that approximately $19 million in financial
obligations for planned bird flu expenses could be deobligated and put to better use for
unfunded bird flu activities that were needed. Specifically, the FOH staff assisted the
OFDA Cognizant Technical Officer (CTO) responsible for monitoring expenditures, with
calculating a potential deobligation of $19 million that could be reprogrammed to cover


                                                                                   12 

other anticipated, but unfunded, bird flu expenses that were in accordance with the
International Disaster and Famine Assistance (IDFA) account earmark. Such anticipated
costs included relocation of commodities from a commercial warehouse to selected
deployment locations overseas, as well as the costs of hiring a commercial contractor to
manage and distribute the existing bird flu commodity stockpile. In fact, the CTO did not
inform AI Unit managers that some funds were no longer needed to accomplish planned
activity objectives in a timely manner because OFDA and FOH officials were unsure
what commodities might be needed in the future. FOH has not acquired, or acquired for
less than the obligated amount, various supplies for which about $10.9 million was
obligated. Moreover, prior to mid-October 2006, AI Unit officials did not request that
OFDA review obligations for funds that could be used for other bird flu activities.
Specifically, FOH acquired personal protective equipment (PPE) kits and other
commodities valued at about $2.3 million less than the funds that had been obligated
and an additional $8.6 million that had been obligated for other supplies in June 2006
respirators that had not been purchased six months later. Moreover, these obligations
had not been expended as of March 16, 2007. The remaining $8.1 million of the
potential deobligation is attributable to ongoing activities such as logistical support and
components for the decontamination kits.

Although the CTO stated that he reviewed FOH billing records prior to approving the
bills, the FOH billing records showed the charge for the PPE kits, for example, as
occurring in August 2006. Therefore, according to the CTO’s statement, around this time
it should have been known that the PPE kits had been acquired for less than the
obligated amount; however, AI Unit managers were not informed. Moreover, this was
prior to the Agency’s fiscal year-end and the preparation of its annual financial
statements when deobligation reviews would normally be conducted. However,
according to the CTO and other OFDA officials, a major concern and source of
uncertainty was to ensure that sufficient funds remained obligated in the agreement with
FOH to transport commodities in the event of a massive pandemic outbreak. This
uncertainty was compounded by the Department of Health and Human Services’ delay
in billing USAID for receipts after it began implementing a new financial management
system. The implementation of this new financial system caused three months delay in
bills dated from November 2006 to January 2007, which were eventually submitted for
payment in February 2007. Notwithstanding these concerns and uncertainties, however,
deobligation of the items that were either not acquired, or acquired for less than their
obligated amounts, which equaled about $10.9 million, could have been initiated by
OFDA, or requested by AI Unit managers, in a more timely manner while still retaining
sufficient funds in the agreement for emergencies.

Even though OFDA has direct responsibility for obligating and deobligating funds that
were appropriated through the IDFA account, the AI Unit, as the entity specifically
formed to provide oversight of USAID’s bird flu activities, has its own fiduciary
responsibility to ensure that those obligations were managed in accordance with
applicable USAID regulations. Since the 1311 Review helps to identify funds that can be
reprogrammed for current requirements as well as supports USAID’s formal year-end
certification to the Department of Treasury, U.S. lawmakers, as well as to USAID
management, stakeholders did not have an accurate indication of realistic funding
requirements for the continuance of USAID’s bird flu program. Inasmuch as USAID
managers should develop and implement cost-effective controls over funds under its
purview, at a minimum, stakeholders should reasonably expect that the most current
factual information will be made available to ensure that funds are put to the best uses.


                                                                                    13 

   Recommendation No. 2: We recommend that USAID’s Bureau for Global
   Health’s Avian and Pandemic Influenza Management and Response Unit
   determine the amount of unneeded, unliquidated obligations for bird flu
   commodities, which were estimated to be $19,061,988 as of December 1, 2006,
   and request deobligation of what has not already been deobligated to date.

   Recommendation No. 3:         We recommend that USAID’s Bureau for Global
   Health’s Avian and Pandemic Influenza Management and Response Unit
   establish a schedule to monitor its unexpended obligation balances for
   opportunities to deobligate funds when no longer needed, in a timely manner.

During the audit, in December 2006, OFDA and AI Unit officials agreed to deobligate $10
million. These officials plan to hold the balance of the unexpended funds valued at
approximately $9 million to cover any remaining FOH activities. On March 21, 2007, the
AI Unit awarded a new task order to a contractor to manage the commodity stockpile.
The contractor is expected to provide services that will include domestic transportation
and warehousing services, international freight forwarding, the development of processes
and standards for ordering, receiving, transferring, and releasing commodities to
recipient countries.

Avian Influenza Unit Should
Apply Accounting Principles
Consistently

  Summary: USAID policy requires USAID managers to implement management
  controls to ensure that expenditures are properly recorded and accounted for.
  Although regional and field mission staff used a stand-alone database system to
  record vouchered and accrued bird flu activity expenditures, certain financial
  information contained in the database system did not agree with each mission’s
  core financial management system at the Regional Development Mission Asia and
  at USAID/Indonesia. This occurred because the AI Unit did not require missions’
  staff to reconcile expenditures in the stand-alone database financial information to
  those in USAID’s core financial management system’s accounting records. As a
  result, internal and external stakeholders may base financial decisions on
  incomplete, inaccurate, or unofficial information.

ADS 596.3.1.c, “Establishing Management Controls,” requires USAID managers to
implement management controls to ensure that expenditures are properly recorded and
accounted for.

The AI Unit uses a specialized, stand-alone database system called Avian Influenza
Monitoring and Evaluation Budget Analysis (AIMEBA) to perform a number of functions,
including financial reporting on USAID’s bird flu activities. AIMEBA was developed so
that the AI Unit could have access to timely information from field missions on the status
of bird flu program implementation in order to fulfill its mandated oversight role and to
respond to reporting requirements imposed by external stakeholders. In addition,
AIMEBA provides greater specificity regarding bird flu obligations and expenditures than
does the Agency’s core financial management system. According to AI Unit guidance,
expenditures recorded in AIMEBA should include both vouchered and accrued


                                                                                   14 

expenditures. Similarly ADS 631, Accrued Expenditures, requires that USAID keep its
official accounting records on an accrual basis. An accrual basis of accounting is one in
which expenditures and other transactions, are recognized when they are incurred,
regardless of when cash is received or paid. Consequently, since both AIMEBA and the
Agency’s core financial management system use the same basis of accounting, at the
end of any given accounting period the recorded expenditures in the two systems should
be equivalent. However, at two mission locations, the Regional Development Mission
Asia (RDMA) and USAID/Indonesia, the recorded expenditures in AIMEBA for selected
agreements did not agree with those recorded in the missions’ accounting records, as of
September 30, 2006.

For example, the expenditures that the RDMA reported for one agreement totaled
$225,643. However, the RDMA’s Office of Financial Management’s (OFM) accounting
records showed zero expenditures in the core financial management system. The
RDMA’s AIMEBA records differed from its OFM accounting records because the
RDMA’s Cognizant Technical Officer had not prepared an accrual spreadsheet for the
quarter ending September 30, 2006 and no disbursements for the newly-awarded
agreement occurred until December 2006. Similarly, for the bird flu portion of another
RDMA-managed agreement, financial information in the AIMEBA reported $84,406 as of
September 30, 2006, while the RDMA’s Office of Financial Management’s accounting
records showed expenditures of $91,928 for the same period. This discrepancy
occurred primarily because the deadline for recording accruals is about one month
earlier for the OFM than for the AIMEBA resulting in differing recorded amounts. In
addition, different staff was responsible for recording expenditures in AIMEBA and in the
mission’s Office of Financial Management’s records.

At USAID/Indonesia, for example, AIMEBA reported expenditures of $772,000 as of
September 30, 2006 for one agreement, while the official accounting records showed
$777,000. For another agreement, AIMEBA displayed significantly more expenditures
than did the mission's accounting system, with $47,000 in total expenditures versus
about $9,600 recorded in the OFM‘s core financial management system.

The AI Unit has not established management controls to ensure that reconciliations of
expenditures recorded in AIMEBA to the expenditures recorded in the Agency’s core
financial system accounting records occur on a routine basis. However, the accounting
principles used by USAID should be applied uniformly to all accounting systems in order
to present the most accurate up-to-date financial information possible. Since the
financial information that AI Unit officials report to stakeholders routinely is garnered
from AIMEBA, and not from USAID’s core financial management system, conflicting
information about USAID’s bird flu activities is probable. Consequently, stakeholders
may base financial decisions on incorrect, incomplete, or unofficial information.
Furthermore, inconsistent application of accounting principles among USAID’s
Washington headquarters’ offices and field missions inhibits the stakeholders’ ability to
monitor and evaluate the effectiveness and efficiency of USAID’s bird flu activities, and
take corrective actions, as necessary.




                                                                                  15 

   Recommendation No. 4:        We recommend that USAID’s Bureau for Global
   Health’s Avian and Pandemic Influenza Management and Response Unit
   develop and implement procedures to ensure that the obligations and
   expenditures reported in the Avian Influenza Monitoring and Evaluation Budget
   Analysis database are consistent with the corresponding obligations and
   expenditures in the Agency’s core financial management system at the end of
   any given accounting period.

   Recommendation No. 5:       We recommend that USAID’s Bureau for Global
   Health’s Avian and Pandemic Influenza Management and Response Unit
   develop and implement procedures to ensure that accruals for the Avian
   Influenza Monitoring and Evaluation Budget Analysis database are submitted on
   the same schedule as those submitted to the Agency’s core financial
   management system at the end of each accounting period.

Avian Influenza Unit Should
Improve Commodity Stockpile
Management

  Summary: Modification 3 to a participating agency program agreement indicated
  that a contractor was to procure, temporarily store, and ship bird flu commodities
  within specific timeframes. Although AI Unit officials drafted a deployment strategy
  for relocating the commodities to overseas locations, about three-quarters of the
  purchased commodities, including about 1.3 million sets of personal protective
  equipment, remained in the United States as of March 2007. This occurred
  because the AI Unit did not believe that regional warehousing of bird flu
  commodities was a cost-effective approach given their assessment of the
  contractor’s logistics support capabilities. As a result, required commodities have
  not been available, assembled, and ready for immediate deployment.

Under a previously established interagency agreement with FOH, USAID’s Office of
Foreign Disaster Assistance (OFDA) made modifications to the existing agreement to
include specific duties for procuring, assembling, and shipping commodities for USAID’s
avian influenza activities on behalf of the AI Unit. Appendix VI outlines the specific
purposes established by each of the modifications to the participating agency program
agreement (PAPA). Modification 3 is one of three modifications to the PAPA that
required the Department of Health and Human Services’ Federal Occupational Health
(FOH) component, as the contractor, to, among other things, procure, temporarily store,
as well as to ship bird flu commodities to various locations within specified timeframes.

Of the total amount budgeted, OFDA, on behalf of the AI Unit, has incurred its single
largest commitment for the procurement of commodities and logistical support activities
valued at approximately $56.3 million. These commodities include personal protective
equipment (PPEs) such as special masks, coveralls, latex gloves, shoe covers,
decontamination supplies that include such items as sprayers, disinfectant, pails, scrub
brushes, and laboratory specimen kits that include material for the collection and
shipment of specimens for laboratory analysis.




                                                                                  16 

Although OFDA, on behalf of the AI Unit, obligated funds to purchase 1.5 million PPEs,
15,470 decontamination kits, and 100 laboratory specimen kits in March 2006, FOH has
only deployed and relocated about 250,000 of the PPEs. Much of the stockpile was
distributed to locations within Southeast Asia, as indicated on the map in Appendix VII.
This distribution was in accordance with such criteria as the country’s need for
assistance, the presence of the virus in the country, and the ability of other donors to
assist. In addition, FOH deployed 2,500 decontamination kits to various overseas
locations through mid-December 2006, with another 1,000 kits shipped to Indonesia in
February 2007. The remaining commodity stockpile of approximately 1.4 million PPEs
remained in a warehouse in Atlanta, Georgia, awaiting deployment, as of February 2007.

Although AI Unit officials drafted a deployment strategy for relocating the commodities to
overseas locations, concerns over the capabilities of stockpile contractor impeded this
effort. In mid-to-late October 2006, AI Unit officials, in consultation with OFDA, began
planning to hire a commercial contractor to manage the commodity stockpile more
effectively. Relying on information in Modification 3 regarding the establishment of a
consolidation and distribution center, and from verbal conversations with the Cognizant
Technical Officer, FOH, as the contractor, relocated 1.3 million PPEs to a commercial
warehouse in Atlanta in preparation for transferring title and responsibility for the
commodity stockpile to USAID on December 1, 2006. Even though FOH submitted a
weekly project report, dated November 3, 2006, to the Cognizant Technical Officer
indicating FOH’s understanding that the December 1, 2006 date entailed a transfer of
the PPE kits to USAID, AI Unit officials stated that this information was not
communicated to them. Ultimately, on November 28, 2006, three days prior to the
planned transfer of the commodity stockpile, the AI Unit informed FOH that the Unit
would not be able to accept the stockpile by December 1, 2006 and to reschedule any
further deployment actions. Taking an emergency acquisition action to procure
temporary storage for the commodity stockpile, FOH procured storage for the 1.3 million
PPEs at the same commercial warehouse where the commodities were previously
staged. At that time, AI Unit officials continued preliminary efforts to obtain another
contractor to assume the responsibility for procuring, warehousing, and deploying the
bird flu commodity stockpile.




                                                                                   17 

     FOH photograph of AI commodities staged during pre-packing operation in January 2007.

Prior to the relocation of the PPEs to the commercial warehouse, FOH had successfully
negotiated “gratis” storage facilities for about 600,000 of the PPEs at a local military
installation in Marietta, Georgia resulting in a cost savings to the U.S. Government for
both storage and security costs. However, since FOH relocated all of the commodity
stockpile to a commercial warehouse, USAID has incurred additional storage costs of
approximately $11,000 a month for those 600,000 PPE kits, until the commodities can
be relocated.

OFDA officials, on behalf of the AI Unit, modified the PAPA to authorize the movement
of commodities to a consolidation and distribution center in preparation for shipment,
and the AI Unit drafted preliminary guidance that envisioned nearly 60 percent of the
available PPE kits deployed by December 1, 2006. However, no deployments occurred
to regional stockpile warehouses because AI Unit managers did not believe that regional
warehousing of bird flu commodities was a cost-effective approach given their
assessment of FOH’s logistics support capabilities. As a result, the AI Unit has targeted
delivery of PPEs and other commodities to 20 high risk countries.

In order to be both timely and responsive to combat outbreaks of bird flu at specific
locations around the world within specified timeframes, USAID must have the required
commodities available, assembled, and ready for immediate deployment in order to
respond to sporadic bird flu outbreaks that can occur globally. Suitable staging areas for
the bird flu commodities overseas will help to ensure that the commodities are
transported within shorter timeframes and available for use expeditiously. The recent
award of a new task order to a contractor to manage the commodity stockpile provides a
useful opportunity to re-examine the issue of regional stockpile warehouses and
determine whether such a deployment strategy is effective and feasible. Consequently,
we are making the following recommendation:



                                                                                        18 

     Recommendation No. 6:        We recommend that USAID’s Bureau for Global
     Health’s Avian and Pandemic Influenza Management and Response Unit
     determine the optimal staging areas for its bird flu commodities in order to meet
     specified timeframes.

Avian Influenza Unit
Should Review
Commodity Requirements

    Summary: USAID policy requires USAID managers to implement controls to ensure
    that assets are safeguarded against waste. On behalf of the AI Unit, a contractor
    purchased decontamination kit components that included, among other things, a
    disinfectant used to clean areas that may be contaminated with the bird flu virus. In
    Indonesia, we found that some of the disinfectant provided in the decontamination
    kits did not have adequate shelf life for storage beyond six months. This occurred
    because the contractor did not inform the AI Unit or OFDA of the disinfectant
    expiration dates, and USAID/Indonesia’s implementers had not inspected the
    shipment to determine expiration dates. As a result, the AI Unit, USAID/Indonesia,
    and implementing partners were unaware of how much disinfectant needed to be
    used expeditiously to avoid spoilage or waste.

ADS 596.3.1.b, “Establishing Management Controls,” requires USAID managers to
implement appropriate, cost-effective controls to reasonably ensure that assets are
safeguarded against waste. An integral part of these controls is ensuring that only
commodities with adequate remaining shelf life are purchased and that the expiration
dates of commodities are tracked and managed so that commodities will be used or
replaced prior to the end of their stated shelf life.

In March 2006, the Department of Health and Human Services’ Federal Occupational
Health (FOH) component and USAID’s Office of Foreign Disaster Assistance (OFDA)
signed Modification 2 of a participating agency program agreement to purchase
commodities to be used in decontamination kits that included, among other things, a
disinfectant used to clean areas that may be contaminated with the bird flu virus.

On behalf of the AI Unit, FOH ordered 15,470 decontamination kits that contained,
among other things, one 5 kg drum of Virkon S (“Virkon”). Virkon is a disinfectant used
to clean poultry cages and other areas that may be contaminated with the bird flu virus.
To fill the order specified by AI Unit officials, FOH ordered 15,470 Virkon drums valued
at approximately $3.1 million or about $201 per each 5 kg drum.5

Given this price, cost considerations for the purchase of Virkon are further amplified
because of product shelf life and storage restrictions associated with the product.
According to the manufacturer’s information on the container, the product has a
production date and an expiration date. To compound matters, the manufacturer
recommends that the product should be stored in a cool dry place since its technical

5
  One kilogram equals about 2.2 pounds of the disinfectant and makes approximately 132 gallons
of a one-per cent solution, per manufacturer’s label instructions.



                                                                                       19 

specifications state that Virkon loses two percent of its potency over its shelf life when
stored at 68 degrees Fahrenheit. We found no evidence that indicated how much
additional potency would be lost if Virkon is stored at temperatures exceeding 68
degrees Fahrenheit, as would be the case in Indonesia. Moreover, USAID officials were
not aware that any of the Virkon stock was close to expiration.

During a random spot check of an implementer’s warehoused inventory in Indonesia,
some of the Virkon (Lot Number 19749) was not only close to expiration, but also stored
in a facility that lacked climatic controls. Moreover, USAID records indicated that 15,478
product containers were received in Marietta, Georgia in a series of shipments in June
and October 2006 (before it was sent to USAID/Indonesia and other locations
worldwide). A FOH representative stated that the Virkon close to expiration was
deployed to the field where it would be most likely to be used immediately. However,
FOH did not inform either OFDA or the AI Unit about the Virkon supply that was received
from the manufacturer with less than one year of shelf life remaining. The manufacturer’s
product production date was listed as August 2004 and the expiration date listed was
August 2007. At the time of the audit, USAID/Indonesia implementers had not inspected
the shipment of decontamination kits to determine the amount of product that would be
needed to be used expeditiously to avoid spoilage or waste. Additionally in February
2007, as a result of the audit, FOH inventoried the commodities to identify the quantities
of date-sensitive inventory that should be available for immediate transfer.




OIG photograph of UN Food and Agriculture Organization representatives and an OIG auditor during
examination of contents in an Indonesian warehouse inventory of bird flu commodities in February
2007.



                                                                                         20 

While an AI Unit official stated that Virkon is “the gold standard” for disinfectants, it does
have limitations that include high cost, and storage and shelf life restrictions. The
benefits and limitations of Virkon should be periodically evaluated to support
management commodity selection and purchase decisions. A periodic review of the
requirements for specific commodities will keep decision makers apprised of critical
restrictions as well as provide the necessary support to justify the purchase of a less
expensive but equally effective commodity, if available.

   Recommendation No. 7:       We recommend that USAID’s Bureau for Global
   Health’s Avian and Pandemic Influenza Management and Response Unit
   develop procedures to periodically review and document its requirements for the
   procurement of commodities.

   Recommendation No. 8:        We recommend that USAID’s Bureau for Global
   Health’s Avian and Pandemic Influenza Management and Response Unit review
   its commodity stockpile inventory to ensure adequate product shelf life exists and
   document a plan for replacement or final disposition accordingly.

Avian Influenza Unit Should
Improve Emergency Shipment
Timeliness

  Summary: The Implementation Plan for the National Strategy for Pandemic
  Influenza requires USAID to coordinate and set up emergency stockpiles of
  protective equipment and essential commodities, other than vaccine and antiviral
  medications, for responding to animal and human outbreaks that would be
  available for deployment within 24 hours. Although AI Unit officials had a sufficient
  commodity stockpile to meet the anticipated demand in calendar year 2006, one
  emergency commodity shipment was not deployed in a timely manner. This
  occurred because USAID officials did not ensure that the contractor had adequate
  commodities readily available for immediate shipment. As a result, stakeholders
  waited longer than necessary for requested commodities.

As of May 2006, Section 4.1.5.2 of the Implementation Plan for the National Strategy for
Pandemic Influenza, entitled “Producing and Stockpiling Vaccines, Antiviral Medication,
and Medical Material,” requires USAID to coordinate and set up emergency stockpiles of
protective equipment and essential commodities (other than vaccine and antiviral
medications). The emergency stockpiles are to be used to respond to animal and
human outbreaks, and ready for deployment within 24 hours of a request for assistance.
The AI Unit’s difficulty in deploying the commodities and relocating them to regional
stockpile warehouses overseas has hindered its timely responsiveness to supply avian
influenza commodities to affected regions. In one instance, the AI Unit encountered
difficulty in deploying commodities in response to a bird flu outbreak in Africa.
Specifically, USAID, through its contractor, Federal Occupational Health (FOH), shipped
an emergency request for commodities approximately one month after the date of the
request for assistance. Not only was this shipment untimely, but also additional shipping
costs of about $23,000 and a two-day shipping delay were incurred due to errors
regarding the weights and dimensions provided by the contractor to the air shipper.


                                                                                       21 

Consequently, the Government of Southern Sudan (GOSS) waited longer than
necessary for USAID’s commodities and supplies that were requested to combat a bird
flu outbreak.

In August 2006, the GOSS confirmed a bird flu outbreak in poultry in the city of Juba.
One month later, GOSS’s Ministry of Agriculture reported the occurrences to the
country’s Ministry of Health. On September 19, 2006, the U.S. Embassy in Khartoum
sent a cable to USAID authorities in Washington notifying the AI Unit about the bird flu
outbreak in Juba. The cable noted that USAID has donated 500 personal protective
equipment items to the United Nations Food and Agriculture Organization (FAO) in
southern Sudan, and also that USAID was coordinating with other U.S. Government
agencies to formulate an appropriate response. Later, on October 6, the AI Unit
received a request from the U.S. Department of Agriculture to ship 1,000
decontamination kits to Sudan that included items such as personal protective
equipment, sprayers, disinfectant, pails, and scrub brushes. The AI Unit Deputy Director
approved this request the same day.

According to documentation from an OFDA representative, OFDA notified FOH about
the needed shipment on October 6. On October 12, FOH informed OFDA that the
supplies would be shrink-wrapped, loaded onto pallets, and ready for shipment
approximately one week later. On October 19, FOH provided OFDA with the shipping
weights and dimensions and OFDA contacted the United Nation’s Food and Agriculture
Organization in Nairobi to obtain appropriate names of consignees that were received on
October 26. On October 27, OFDA requested bids for freight forwarding and awarded a
contract on October 31, 2006 that allowed FOH to ship the requested commodities on
November 2-3, 2006 to Nairobi.

Although FOH procured sufficient commodities to assemble the requested
decontamination kits, USAID officials did not ensure that the contractor had the required
number of kits assembled and readily available for immediate deployment with 24 hours,
as required. According to one AI Unit official, FOH did not have the infrastructure to
operate a global distribution network. For example, a complicating delay in the shipment
of the decontamination kits to Sudan was due to FOH’s dealings with the U.S.
Department of Transportation regarding dangerous-goods labeling for the air shipment
of the alcohol wipes in the kits. Furthermore, under the PAPA, the FOH technical adviser
was responsible for overseeing a wide variety of both regular and ad-hoc activities
pertaining to OFDA’s role in responding to chemical, biological, radiological, and nuclear
emergencies. However, once the modifications to the PAPA were implemented, this
official assumed additional duties for procuring, assembling, and shipping the
commodities. Moreover, FOH, using a subcontractor, had assembled the kits on an as-
needed basis, when it had sufficient components to pack the kits.

Although the FOH efforts to assemble, pack, and ship the bird flu commodities have
been commendable, the AI Unit did not have sufficient emergency stockpiles of
protective equipment and essential commodities available to respond to bird flu
outbreaks within established timeframes because the manufacturers of some of the
commodities did not have sufficient supply of PPE kit components. FOH took the
initiative to obtain volunteer labor to assemble PPE kits in the late Winter and Spring of
calendar year 2006 until the manufacturers could provide the necessary kits.
Since USAID has a major responsibility and plays a major U.S. Governmental role to
assist its global neighbors to increase its stockpiles of commodities to combat, contain


                                                                                   22 

and eradicate bird flu outbreaks, timely emergency response is imperative. PPEs and
other commodities needed to bolster the efforts of countries affected by the bird flu virus
or at high risk of being infected, to prepare, monitor, and combat the spread of the
disease may not be available in a timely manner during an outbreak. Without timely
deployment of the commodities needed, neither USAID nor those countries that it seeks
to assist, will have the commodities necessary to adequately fight the disease as well as
help to eradicate it.

   Recommendation No. 9:        We recommend that USAID’s Bureau for Global
   Health’s Avian and Pandemic Influenza Management and Response Unit
   develop a strategy for the deployment of emergency bird flu commodities within
   established timeframes.

Avian Influenza Unit Should
Improve Controls Over
Commodity Transfers of
Ownership

  Summary: USAID policy requires its managers, in part, to employ control activities
  to appropriately document transactions and safeguard assets. Although
  USAID/Indonesia provided support to implementers to achieve program goals for
  its bird flu control and eradication program, the AI Unit has not established any
  memorandum for agreement that can be used to transfer ownership of bird flu
  commodities. Some mission staff did not formally document the transfer of
  ownership because staff relied on AI Unit officials to document the transfer of
  ownership for shipments originating in the United States. As a result, AI Unit
  officials transferred commodities valued at $ 2.6 million outside of USAID for use by
  program implementers without proper documentation of the transfer of ownership.

In June 2006, the Office of Foreign Disaster Assistance entered into an agreement with
the United Nations’ Food and Agriculture Organization (FAO) to provide support and
some commodities for USAID’s global bird flu control and eradication program. As a
part of this agreement, FAO was to provide a number of USAID missions with assistance
in planning, surveillance, and response activities. At USAID/Indonesia for example, FAO
was tasked to provide participatory disease surveillance and response through a
program it established called an Early Warning and Rapid Response Program.

To achieve some of the goals of USAID’s global bird flu control and eradication program,
the FAO entered into an agreement with the Government of Indonesia’s Ministry of
Agriculture to create Indonesia’s Bird Flu Participatory Disease Surveillance and
Response Program.        With USAID funding, FAO established a pilot system of
participatory disease surveillance and response (PDS/R) in 12 districts on the island of
Java. The PDS/R program was designed to help increase the frequency of disease
detections, as well as to respond to suspected outbreaks. Because of the program’s
initial success, stakeholders decided that the PDS/R program should be expanded to
cover all of Java and extend to other islands within Indonesia. The project also was to
provide training for PDS/R teams. USAID provided additional funding to extend the




                                                                                    23 

project until March 31, 2007 to build collaborations with partner institutions to achieve
the maximum extension of activities possible within a one-year period.

As a part of its training program, the AI Unit agreed to provide approximately 200,000
sets of PPEs and 2,000 decontamination kits valued at $2.6 million to the FAO for bird
flu outbreak response activities. According to an FAO representative, the PDS/R teams
would use the PPEs for the project activities over a one-year period in its surveillance
and response activities in Indonesia. In this regard, the AI Unit provided shipments of
more than 4,200 PPEs to satisfy FAO’s temporary needs before December 20066 and
has recently transferred one of two shipments of approximately 100,000 PPEs and 1,000
decontamination kits to the organization for its use. According to one USAID/Indonesia
staffer, the Mission plans to provide a second shipment of PPEs, if needed.

USAID’s Automated Directives System 596, Management Accountability and Control,
requires its managers to employ management controls to appropriately document
transactions and safeguard assets. Although USAID has transferred ownership of bird
flu commodities valued at $2.6 million to FAO as a part of its program implementation,
USAID did not formally document the transfer of ownership of the commodities, as a
prudent management control for ensuring accountability of government resources.
USAID/Indonesia staff did not formally document the transfer of ownership because staff
relied on AI Unit officials to document the transfer of ownership inasmuch as the
shipment originated in the United States. Conversely, AI Unit officials believed that a
signed acknowledgement of a USAID receiving report by an FAO representative
constituted sufficient documentation of the transfer of ownership. This documentation,
however, did not establish the rights and obligations of the parties. In Indonesia, for
example, a PDS/R team used only part of the components of a PPE kit during one site
visit observed. While the use of a partial PPE kit may have been entirely appropriate
under the circumstances, there is no assurance that the remaining salvageable
components will be returned to USAID or used in an otherwise suitable manner, absent
sufficient documentation setting forth the parties’ rights and obligations.

Since the AI Unit released custody of and provided bird flu commodities to an
implementer for use in one of its program activities, the AI Unit, in part, modified the
terms of the original written agreement without sufficient documentation.              Any
modifications, changes, or revisions to a written agreement should be documented
formally in writing as a modification or amendment to the original project to acknowledge
the agreement and document expectations that the equipment will be used as intended.
Since USAID’s agreement to provide PPEs and other avian influenza commodities to
FAO was not documented, in writing, by either a modification or amendment to the
project document used for the FAO program implementation, USAID cannot be assured
that the purpose, rights and responsibilities, or expectations will be fully understood, or
executed. Without formal documentation of the transfer of USAID-owned property, AI
Unit officials cannot adequately document some of its transactions or properly and
effectively provide sufficient management controls over its assets.




6
    Prior to the formation of the AI Unit, OFDA shipped 2,000 PPE kits to Indonesia in mid-2005.


                                                                                             24
Recommendation No. 10: We recommend that USAID’s Bureau for Global
Health’s Avian and Pandemic Influenza Management and Response Unit
develop procedures to adequately document the transfer of ownership of bird flu
commodities.




                                                                            25
EVALUATION OF
MANAGEMENT COMMENTS
In their response to the draft report, AI Unit managers generally concurred with all of the
recommendations. Accordingly, a management decision has been reached on all ten
recommendations, and final action has been completed on two recommendations.
However, the AI Unit made three general comments about the distinction between
OFDA and the AI Unit, the value of the commodities transferred to Indonesia without
proper transfer documentation, and the lack of a proper balance regarding the AI Unit’s
emergency shipping timeliness. We will address each of these general comments in
conjunction with our evaluation of the AI Unit’s response to each of the 10
recommendations.

To address Recommendation No. 1, AI Unit Officials agreed to develop an intra-agency
agreement that will clearly define responsibilities and lines of authority. However, AI Unit
managers believed that the draft report implied that the AI Unit was responsible for the
management of the International Disaster and Famine Account (IDFA) funds. Contrary
to this assumption, an entire section of the draft report discussed the management
responsibilities of OFDA and AI Unit when the offices used an agreement that allowed
one office to have direct day-to-day management responsibilities while another office
had management control responsibilities at a functional or activity level. Moreover, we
provided the distinction of responsibilities between the two offices in the background
section of the draft report and later discussed the difficulties in using an agreement in
which another USAID office (OFDA) has the direct day-to-day management
responsibilities, working on behalf and in consultation with another office (the AI Unit).
As stated in the draft report “the AI Unit is responsible for management and oversight of
USAID’s bird flu activities” and “OFDA is responsible for managing and implementing
IDFA funds, which includes coordination with the AI Unit to develop and deploy a
commodity stockpile.” Furthermore, we point out that pre-existing agreements can pose
problems when the control of activities rests with separate offices that are responsible
for different activities and as well as priorities. In this instance, the AI Unit used an
agreement with another federal agency (FOH) that was implemented by a separate
USAID office (OFDA) to procure and ship commodities (for the AI Unit).

Since the AI Unit plans to develop an intra-agency agreement that will clearly define
responsibilities and lines of authority between it and OFDA, a management decision has
been reached on this recommendation.

Regarding Recommendation No. 2, the AI Unit, working with OFDA, has determined the
unneeded funds in the FOH agreement and has begun deobligating the funds.
Communication with an OFDA official subsequent to the receipt of management
comments indicated that a final figure was not yet available. A previous deobligation of
$10 million was finalized in May 2007. While AI Unit managers believe that the AI Unit
does not have any responsibility for financial oversight, we state that even though OFDA
has the direct responsibility for obligating and deobligating funds that were appropriated
through the IDFA account, the AI Unit, as the entity specifically formed to perform
oversight of USAID bird flu activities, has a fiduciary responsibility to ensure that those



                                                                                     26 

obligations were managed in accordance with USAID regulations, especially since the AI
Unit reports to the U. S. Congress about IDFA monies used for bird flu activities. While
we understand that deobligation is performed by OFDA for IDFA monies, AI Unit
managers, acting in an oversight capacity, are not precluded from requesting that OFDA
deobligate funds that are no longer needed for specific purposes and should be aware of
unexpended obligated balances for opportunities to fund other activities. Thus, contrary
to management’s comments, Recommendation No. 2 recognizes the distinct
responsibilities of the two offices and specifically states that the AI Unit “request
deobligation” of funds rather than deobligate those funds directly. Furthermore, the draft
report also acknowledged the restrictions placed on the obligated funds by the IDFA
earmark and stated that any reprogramming of such funds must be in accordance with
the authorizing legislation. We realize that the legislation broadly allows the AI Unit to
develop a stockpile of commodities and deploy them. However, the AI Unit did not
ensure that obligations for items that were neither acquired nor acquired for less than the
obligated amounts were deobligated in a timely manner in order to present an accurate
indication of realistic funding requirements for the continuance of bird flu activities.

As an illustrative example, during an audit briefing AI Unit managers requested auditing
data about several commodities that had been acquired for less than their obligated
amounts. Since the balance of the obligations for these several commodities could be
deobligated immediately, AI Unit managers wanted to review this documentation
inasmuch as the managers stated that they had not received the information prior to the
audit briefing.

Since the AI Unit, working with OFDA, has begun the deobligation process, a
management decision has been reached on this recommendation.

With regard to Recommendation No. 3, the AI Unit agreed that it was essential to
continue to review unexpended obligations on a quarterly basis and look for
opportunities to deobligate funds when they were no longer needed. However, the AI
Unit managers believed that OFDA had the ultimate management authority to, among
other things, deobligate any of the bird flu funds. While this is true, AI Unit managers
also, in exercising their basic fiduciary duties, should establish a schedule to monitor
unexpended bird flu obligations for opportunities to recommend deobligation of funds to
OFDA when no longer needed for expressed purposes. Moreover, on a regular basis,
AI Unit managers will be able to exercise full oversight authority as the AI Unit makes the
transition to the new contractor hired to, among other things, transport and store bird flu
commodities. Since AI Unit managers have agreed to review unexpended obligations
on a quarterly basis and look for opportunities to deobligate funds when no longer
needed, a management decision has been reached on this recommendation.

Regarding Recommendation No. 4, AI Unit managers concurred with the
recommendation and plan to develop procedures to ensure consistency exists between
the Agency’s core financial management system and the Unit’s Avian Influenza and
Monitoring Evaluation Budget Analysis (AIMEBA) database.           Accordingly, a
management decision has been reached on the recommendation.

Regarding Recommendation No. 5, the AI Unit managers plan to update and publish
AIMEBA guidance to ensure consistency with the Agency’s core financial management
system. The recommendation that the AI Unit cited in its management comments,
however, was a previous version that subsequently was revised in the draft report.


                                                                                    27 

Nonetheless, the managers addressed Recommendation No. 5 in their planned actions
for Recommendation No. 4. Accordingly, a management decision has been reached on
Recommendation No. 5.

Regarding Recommendation No. 6, the AI Unit has awarded a contract to a company for
the procurement, management, and distribution of bird flu commodities and plans to
begin assessing the efficiency and effectiveness of pre-positioning bird flu commodities
by July 2007. By performing this type of assessment for the pre-positioning of bird flu
commodities in Southeast Asia, the AI Unit will take the necessary first actions to
determine optimal staging areas where it can provide timely responses to bird flu
outbreaks when necessary. Accordingly, a management decision has been reached on
this recommendation.

Regarding Recommendation No. 7, the AI Unit plans to continue to review the
appropriateness of the commodities, such as the disinfectant named Virkon, and make
necessary changes based on sound scientific evidence and the support of qualified
experts. Moreover, while AI Unit managers dispute the cost of a 5kg drum of Virkon as
valued at $151 each, FOH financial records indicate the cost of one 5 kg drum of Virkon
as valued at $201. Accordingly, a management decision has been reached, and final
action taken, on this recommendation.

Regarding Recommendation No. 8, the AI Unit has reviewed its commodity stockpile to
ensure that adequate product shelf life exists. In addition, AI Unit managers have
agreed to instruct its contractor to ensure that adequate shelf life exists for dated
products and that expired products are handled properly. We believe that these actions
will assist the AI Unit in monitoring usage of perishable commodities. Accordingly, a
management decision has been reached on this recommendation.

Regarding Recommendation No. 9, in a newly awarded March 2007 contract, AI Unit
managers have included an emergency shipping component as a strategy to provide for
the deployment of emergency bird flu commodities within established timeframes.

In response to AI Unit managers’ concerns that the draft report unduly highlighted the
delayed shipment to Sudan that took approximately one month, any emergency
shipment that takes an inordinate amount of time should be emphasized. Because the
Implementation Plan for the National Strategy for Pandemic Influenza requires that
USAID set up commodity stockpiles of protective equipment and essential commodities
for responding to outbreaks that would be available within 24 hours, USAID compliance
is mandatory. During the audit, the delayed shipment to Sudan clearly illustrated the
problems that hindered the Agency’s efforts to comply with the strict 24-hour deadline.
Although AI Unit managers comment that 70 other shipments had been "timely," the
definition of “timely” is not specified in their comments or otherwise linked to the 24-hour
deadline for emergency shipments that is required by the Implementation Plan for the
National Strategy for Pandemic Influenza.

Based on our review of the newly awarded March 2007 contract, we believe that the AI
Unit’s inclusion of an emergency shipping component will address this recommendation.
Accordingly, final action has been taken on this recommendation.

Regarding Recommendation No. 10, the draft report explicitly stated that the $2.6 million
figure is based on 200,000 PPE sets and 2,000 decontamination kits – USAID’s total


                                                                                     28 

commitment. The 200,00 PPE sets are valued at $1.6 million (or $8.05 each) and the
2,000 decontamination kits are valued at $1 million (or $504.33 each). These
commodity costs are based on our review of FOH billing records and are exclusive of
transportation and storage costs. Moreover, the draft report stated that one-half of
those amounts had been shipped as of the end of audit fieldwork. Of great note are the
costs for one 5-kg pail of Virkon disinfectant at $200.99 and one fit-test kit at $180.24
that was specified by the task order to be included in each decontamination kit.
Furthermore, USAID’s commitment to supply bird flu commodities to Indonesia is
documented in other official data. For example, in a letter from the USAID/Indonesia
Mission Director to a senior Indonesian official in January 2007, the Mission Director
refers to a transfer of 100,000 PPE sets as “the first installment of a total 200,000 sets of
PPE and 2,000 decontamination kits for this year.” Also, in a September 2006 press
release, the American Embassy Jakarta called attention to a $2.2 million contribution to
bird flu prevention efforts, which, according to a USAID/Indonesia official, was based on
200,000 PPE sets valued at $2.0 million (or $10 each) and 2,000 decontamination kits
valued at $0.2 million (or $100 each).

In its response to our draft report, the AI Unit asserts that full transfer documentation
was implemented after an initial shipment of PPE sets valued at $36,750. However, as
stated in the draft report, an FAO representative’s signed acknowledgement of a USAID
receiving report does not constitute sufficient documentation since such a report does
not designate the rights and obligations of the parties. The AI Unit managers did not
require staff to sufficiently document the formal transfer of USAID ownership for
commodity shipments originating in the United States. Proper transfer documentation is
a prudent management control for ensuring accountability of government-owned
resources that establishes the rights and responsibilities of USAID, as well as
documents the agreement with its implementing partners. Most importantly, this type of
transfer of ownership documentation ensures that arrangements are made for salvaging
unused commodities that have the potential for future use at the end of any contractual
period by USAID or any subsequent implementing partner.

Since the AI Unit has commenced developing adequate documentation of the transfer of
ownership of bird flu commodities, a management decision has been reached on this
recommendation.




                                                                                      29 

                                                                            APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General’s Performance Audits Division conducted this audit in
accordance with generally accepted government auditing standards. The purpose of the
audit was to determine what progress USAID is making in conducting selected
mandatory activities to address the threat of avian influenza. We conducted this audit at
USAID’s Bureau for Global Health, Avian and Pandemic Influenza Management and
Response Unit in Washington, D.C.; Dobbins Air Reserve Base in Marietta, Georgia;
Regional Development Mission Asia (RDMA) in Bangkok, Thailand; and at
USAID/Indonesia in Jakarta, Indonesia from November 27, 2006 to March 16, 2007.

In planning and performing the audit, we obtained an understanding of USAID’s roles
and responsibilities for addressing the threat of bird flu. Furthermore, we obtained an
understanding of the management controls related to the accurate and timely recording
of financial information, supervision and reviews by management at the functional level,
and documentation of transactions and internal controls. Our audit covered AI Unit
activities conducted from October 2005 to March 16, 2007.

The AI Unit’s worldwide responsibilities include mandatory activities that include (1)
commodities, (2) surveillance (both animal and human), (3) response (both animal and
human), (4) communications, and (5) preparedness. We judgmentally selected the
management of the commodity stockpile for a thorough review since USAID’s
commitment of about $56 million for commodities was its single largest activity –
comprising 29 percent of all USAID’s total budgeted funds valued at $191 million, as of
December 2006. In addition, aspects of the operation could be tested at various
locations worldwide from product receipt to deployment to USAID field missions and to
implementers. We also reviewed surveillance and response activities in Indonesia,
since Indonesia has experienced the largest number of human fatalities attributable to
bird flu. Finally, we reviewed certain management control activities at the Regional
Development Asia, which is responsible for significant U.S. and international efforts to
contain bird flu in Viet Nam, Laos, southern China, and Burma.

Methodology
To answer the audit objective, we reviewed applicable guidance on USAID’s bird flu
activities. This guidance included the U.S. Homeland Security Council’s Implementation
Plan for the National Strategy for Pandemic Influenza; the AI Unit’s Avian and Pandemic
Influenza Strategic Guidelines for Missions and Regional Bureaus; and AI Unit’s draft
field guidance for commodity stockpile management. We also reviewed reports and
other documents prepared by various USAID implementing partners, such as the United
Nation’s Food and Agriculture Organization (FAO) and the Department of Health and
Human Services’ Federal Occupational Health (FOH) component. In addition, we
reviewed USAID’s Automated Directives System (ADS) 202, Achieving; ADS 306,
Interagency Agreements; ADS 308, Grants and Cooperative Agreements with Public
International Organizations; ADS 596, Management Accountability and Control; ADS
602, Forward Funding of Program Funds, and ADS 621, Obligations, among others.



                                                                                  30 

                                                                             APPENDIX I


Finally, we reviewed legislation applicable to USAID’s avian influenza activities that
included the Emergency Supplemental Appropriations Act for Defense, the Global War
on Terror, and Tsunami Relief, 2005 (Public Law. 109-13); the Department of Defense,
Emergency Supplemental Appropriations to Address Hurricanes in the Gulf of Mexico,
and Pandemic Influenza Act, 2006 (Public Law 109-148); and the Emergency
Supplemental Appropriations Act for Defense, the Global War on Terror, and Hurricane
Recovery, 2006 (Public Law 109-234).

Next, we determined USAID’s assigned activities by consulting the Implementation Plan
for the National Strategy for Pandemic Influenza, as well as reports on the achievement
of those activities submitted to the Homeland Security Council in October 2006. For
selected activities pertaining to bird flu commodities, USAID/Indonesia, and the countries
serviced by RDMA, we determined whether the audit evidence supported the assertions
in those reports. We supplemented these determinations by also reviewing other reports
required by the applicable funding statutes, in addition to the AI Unit’s own internal
monitoring program.

We interviewed staff from the AI Unit, OFDA, FOH, FAO and the Department of
Agriculture’s Animal and Plant Health Inspection Service to understand the processes by
which commodities were procured, deployed, and used in the field. We then evaluated
management controls and inspected relevant documents pertaining to the purchase and
shipment of the commodities. In addition, we visited the facility that packaged over 1.5
million personal protective equipment kits and toured warehouses in Georgia and
Indonesia containing about 1.4 million of those kits.

During our field work in Thailand and Indonesia, we also first interviewed missions’ staff
to determine the nature and extent of the missions’ bird flu activities. Next, we inspected
documentation and procedures related to a broad range of bird flu activities, including
the recording of financial information, monitoring and evaluating program performance,
and reporting results to external stakeholders. In Indonesia, we accompanied a two-
person Participatory Disease Surveillance (PDS) team during an evaluation of a
suspected bird flu poultry outbreak in the province of Yogyakarta on central Java, and
observed its operating methods. In addition, we observed a two-person Participatory
Disease Response (PDR) team conducting an educational seminar for local villagers.
During our site visit to Yogyakarta, we also participated in a briefing with Indonesian
officials.

We did not determine materiality thresholds for the audit objective because we based
our fieldwork on programmatic impact and predominant share of budgeted funds.




                                                                                    31 

                                                                                       APPENDIX II 




MANAGEMENT COMMENTS


                                                                                     May 25, 2007




TO:	           IG/A/PA, Steven H. Bernstein, Director

FROM:GH/HIDN/AI, Dennis Carroll, Director

SUBJECT:	      Management Comments on the Audit of USAID’s Avian Influenza Efforts
               (Report no. 9-000-07-XXX-P)

This memorandum transmits the Bureau for Global Health, Office of Health, Infectious
Diseases and Nutrition, Avian and Pandemic Influenza Management and Response
Unit’s (AI Unit) response to the draft audit report titled “Audit of USAID’s Avian Influenza
Efforts” audit report no. 9-000-07-XXX-P, dated May, 2007.

Background

On October 3rd, 2005, the USAID Administrator announced in a priority executive
message to the Agency the formation of the Avian and Pandemic Influenza Management
and Response Unit (AI Unit) headed by Dr. Dennis Carroll In January 2006, Congress
appropriated an additional $279.5 million in emergency supplemental funding for USG
international response activities. Of this amount, $131.5 million was appropriated to
USAID in recognition of the Agency’s lead role in quickly mobilizing existing mechanisms
to support the international response to H5N1. These supplemental funds were divided
between the Child Survival and Health (CSH) funds account ($75.2 million) and the
International Disaster and Famine Assistance (IDFA) account ($56.3 million). In
accordance with the legislation, OFDA assumed responsibility for managing and
implementing IDFA funds, in coordination with the AI Unit, to develop a stockpile of
essential health commodities and equipment and deploy them to affected countries.

               Excerpt from H.R. 2863, FY06 Defense Appropriations Act (p. 105):
               CHILD SURVIVAL AND HEALTH PROGRAMS FUND
               For an additional amount for ‘‘Child Survival and Health Programs Fund’’ for
               activities related to surveillance, planning, preparedness, and response to the
               avian influenza virus, $75,200,000, to remain available until expended:
               Provided, That funds appropriated by this paragraph may be obligated and
               expended notwithstanding section 10 of Public Law 91–672: Provided further,
               That the amount provided under this heading is designated as an emergency
               requirement pursuant to section 402 of H. Con. Res. 95 (109th Congress), the
               concurrent resolution on the budget for fiscal year 2006.


                                                                                                 32
                                                                                      APPENDIX II 



               INTERNATIONAL DISASTER AND FAMINE ASSISTANCE
               For an additional amount for ‘‘International Disaster and Famine Assistance’’
               for the pre-positioning and deployment of essential supplies and equipment for
               preparedness and response to the avian influenza virus, $56,330,000, to remain
               available until expended: Provided, That funds appropriated by this paragraph
               may be obligated and expended notwithstanding section 10 of Public Law 91–
               672: Provided further, That the amount provided under this heading is
               designated as an emergency requirement pursuant to section 402 of H. Con. Res.
               95 (109th Congress), the concurrent resolution on the budget for fiscal year
               2006.

In May 2006, the U.S. Homeland Security Council published the National
Implementation Plan (NIP) to the National Strategy for Pandemic Influenza, which laid
out responsibilities and actions to be taken by departments and agencies across the
Federal Government to prevent and prepare against a pandemic. Under the NIP,
USAID plays a critical role in bridging between the human and animal health sectors to
ensure a comprehensive and cross-sectoral international response to the threat of avian
influenza. The NIP formally established USAID as a lead USG agency for implementing
AI activities related to international disaster response, the development of health
capacity abroad, including public health capacity, the training of non-health
professionals, and operational coordination for the provision of U.S. international health
and development assistance.

In November 2006 the Office of the Inspector General initiated an audit of the USAID
avian influenza activities. The draft report to that audit was completed and transmitted to
the Bureau for Global Health for comment on April 18, 2007. The comments below
represent the Bureau for Global Health’s reaction to that document.

General comments
There are three broad issues with the report that deserve special attention. First is the
fact that the IG did not clearly define the distinction between OFDA and the AI Unit. This
theme runs throughout the report and confuses many of the recommendations as it calls
on the AI Unit to undertake actions that come under the authority of OFDA, such as
deobligation of funds. The report should have clarified the distinction in authority
between these two units and recognized the responsibility of each unit when making
recommendations.

Secondly, the report exaggerates issues using incorrect data. An example is the
assertion that $2.6 million worth of commodities were transferred to the FAO in
Indonesia without proper transfer documentation. It is true that some PPE were sent to
FAO without the full transfer documentation. However, the actual value of those
commodities was approximately $37,000 not $2.6 million. While the AI Unit and OFDA
strongly agree that the transfer of any amount of commodities without proper
documentation is unacceptable, the impact of the report is distorted when incorrect data
are used to describe the particular instance. The IG included commodities in its
calculation that have never actually been shipped to Indonesia because they have not
been needed to date. The report also fails to mention that proper procedures were put
in place after the initial transfer and subsequent larger transfers did have the proper
transfer documentation. This tendency to incorrectly state the scope of a problem
leaves the reader with a false impression.


                                                                                                33
                                                                               APPENDIX II

Finally, the report does not offer a proper balance regarding performance of the Agency.
For example, the section on improving emergency shipping timeliness sites “one
instance” where a shipment was delayed but fails to mention the other shipments made
to over 70 countries that were timely. The report fails to put issues in perspective and
casts the impression that delays were typical.

In spite of the weaknesses of the IG report, the AI Unit and OFDA found positive
suggestions in the recommendations and have, in all cases, taken action to address the
weaknesses. The following section provides comments and actions with respect to each
recommendation.

Avian Influenza Unit should develop intra-agency agreement

Recommendation 1: We recommend that USAID’s Bureau for Global Health’s Avian and
Pandemic Influenza Management and Response Unit develop a written intra-agency
agreement with other USAID offices responsible for executing bird flu programmatic
activities.

Comment: One important clarification needs to be raised with respect to this section.
The draft report implies that the GH Bureau’s AI Unit is responsible for the management
of the International Disaster and Famine Account (IDFA). The Congressional legislation
appropriated the FY06 $131 million AI funds into the IDFA ($56 million) and Child
Survival Accounts ($75 million). DCHA/OFDA is solely responsible for managing the
IDFA monies, not the AI Unit. While OFDA collaborated and worked with GH as part of
the AI Unit in establishing the composition and standards of the kits, the AI Unit did not
have managerial responsibility for the IDFA account. Regarding the use of the FOH
agreement the report is incorrect when it notes that the “AI Unit entered into an
agreement through another federal agency that was implemented by a separate USAID
office to procure and ship commodities”. That agreement was with OFDA and not the AI
Unit. The report persists in failing to recognize this distinction.

Action: It is agreed, however, that AI activities that involve intra-agency activities funded
with GH AI funds should be clearly defined by agreements which spell out
responsibilities and lines of authority. In the future the AI Unit will develop such
agreements and is presently in the process of doing this with respect to the humanitarian
response activities that will be shared between the AI Unit and OFDA.




Avian influenza unit should request deobligation reviews
periodically

Recommendation 2: We recommend that USAID’s Bureau for Global Health’s Avian
and Pandemic Influenza Management and Response Unit determine the amount of
unneeded, unliquidated obligations for bird flu commodities, which were estimated to be
$19,061,988 as of December 1, 2006 and request deobligation of what has already not
been deobligated to date.



                                                                                          34
                                                                          APPENDIX II

Comment: The report mistakenly assigns the responsibility of financial oversight for the
FOH agreement to the AI Unit. As has been noted, this responsibility resides with the
Office of Foreign Disaster Assistance and not the Bureau for Global Health. While the AI
Unit and OFDA closely consulted on all aspects of commodity management, the
responsibility for managing the FOH agreement and any subsequent financial matters
rested within OFDA.

The report incorrectly characterizes the matter of fund deobligation concerning avian
influenza commodities. In late 2006 OFDA and the AI Unit discussed the ability of FOH
to be able to deliver commodities under the conditions required by the AI Unit. It was
decided that FOH would be unable to achieve the desired performance and that a new
mechanism should be developed that could adequately provide the services that were
required. The transition from FOH to this new mechanism had to take several realities
into account:

   •	 Until the new award was finalized FOH was the only mechanism which OFDA
      had available to transport and store commodities. This meant that an adequate
      level of funding needed to remain in the FOH agreement in order to cover any
      incident that could occur during the period of transition.
   •	 When the new award was made by Global Health an adequate level of funding
      needed to be made available for the new mechanism to initiate its activities and
      cover its responsibilities for storing and delivering avian influenza commodities.
   •	 Since the new award had to be bided, there was uncertainty as to how long the
      award process would take and when the new mechanism would be able to fully
      assume the commodity storage and delivery responsibilities.
   •	 The transition period between these mechanisms was occurring at the peak of
      the influenza season and there was no way of knowing what commodities would
      be needed and where they would be needed. Therefore, the exact amount of
      funding that would be needed by which mechanism to cover the delivery of
      commodities was also not known.

Financial reviews indicated that approximately $19 million remained in FOH in
December of 2006. These funds represented savings from procurements and reserves
for shipping and storage. Given the uncertainties of influenza outbreaks, all funds that
resulted from savings on procurements were being held in reserve for shipping and
possible new procurements should the need arise. Given this situation, the AI Unit and
OFDA agreed to enter into a four step process for managing the transition of funds from
FOH to the new mechanism.

   1. 	Unobligated IDFA funds ($2.397 million) that were still in OFDA would be
        immediately transferred to Global Health for obligation to the new mechanism as
        soon as it was awarded.
   2. 	 An initial deobligation from FOH of $10 million was started so that those funds
        could be ready for reobligation as soon as possible after the award of the new
        mechanism. This deobligation was initiated in December of 2006 and the funds
        arrived in the Global Health Bureau in May of 2007. It was decided to deobligate
        $10 million because this figure would insure enough funds for the new
        mechanism as well as maintaining an adequate level of funding in FOH to cover
        any expenses incurred during the transition. Since OFDA was still using FOH as
        the delivery mechanism for AI commodities and the demand was uncertain, this



                                                                                     35
                                                                              APPENDIX II 


   3. 	amount seemed to be a safe level as it provided the new mechanism with
        adequate funding for at least 6 months and it would leave enough funds in FOH
        until the AI Unit and OFDA had a better picture of how long FOH’s services
        would be required.
   4. 	 Once the new mechanism (Deliver Task Order 3) was in place and the demands
        on FOH were clear, OFDA began a second deobligation designed to leave only
        enough funds to cover legitimate costs incurred by FOH during the transition and
        close out. OFDA tasked FOH with developing this number on April 30, 2007.
        Once the amount is settled, it will be deobligated from FOH for reobligation into
        Deliver.
   5. 	After close out of the agreement with FOH any remaining funds will be
        deobligated and transferred to the AI Unit for reobligation into Deliver. Since
        USAID is required to give the contractor a specific amount of time to submit their
        final voucher, the timing of this deobligation will depend on the rules governing
        such contractual matters. However, it is the intent of OFDA and FOH to make
        this final deobligation as small as possible in order to avoid locking funds into the
        agreement for a prolonged period of time.

In addition, in ADS 621.3.12, in paragraph 3, the ADS states that:

       “Program and AMS or EMT Offices in USAID/W and Mission Controllers must
       coordinate an annual review of unexpended obligated balances to verify that
       excess and unneeded balances have been identified and deobligated. This can
       be done on a quarterly basis, in conjunction with accruals of expenditures.”

Although the review is described as continuously, the determination that funds are no
longer needed is determined on a quarterly basis.

In this case, the determination OFDA made was based not on unneeded or excess
funds, but on a management judgment that the Agency would be better served by a
logistics mechanism that had the ability to track commodities with regularity. The initial
objective and reason for using the Inter Agency Agreement (IAA) IAA with FOH -- to
setup the standard for PPE and decontaminations kits and procure an emergency
amount in the shortest possible time in advent of a pandemic at the greatest cost
savings to the Government -- was accomplished. When it was clear that there was a
different phase needed, OFDA together with the AI Unit discussed the best plan for the
second phase to regularize the shipments. As a result a contract through GH was
deemed the best next course. Since IDFA funds were designated for commodity
distribution within the legislation, they could not be reobligated for other purposes
without the consent of Congress. The AI Unit and OFDA developed the process outlined
above to ensure that the funds could be transitioned in a timely manner and at no time
did the commodity mechanisms (FOH and Deliver) suffer from a lack of funding. This
process met the rules for deobligation established by USAID and provided for a smooth
transition from one mechanism to another without any disruption in services. All of this
information was made available to the IG. The IG assertion that “AI Unit managers did
not request that OFDA deobligate the funds in a timely manner because the managers
were not aware that unexpended obligated balances existed that could have been used
for other planned, but unfunded, bird flu activities.” is inaccurate. As noted above the AI
Unit managers and the OFDA were in constant contact about funding levels. The
request to deobligate funds was made in December of 2006 and the OFDA proceeded to
accomplish this deobligation in only 5 months.


                                                                                          36
                                                                               APPENDIX II


Action: The AI Unit working with OFDA has already determined the unneeded funds in
the FOH agreement and has begun the process of deobligation as described above.


Recommendation 3: We recommend that USAID’s Bureau for Global Health’s Avian
and Pandemic Influenza Management and Response Unit establish a schedule to
monitor its unexpended obligation balances for opportunities to deobligate funds when
no longer needed, in a timely manner.

Comment: With respect to the agreement with FOH and the deobligation of funds, this
responsibility was within the management authority of OFDA. OFDA was charged by
Congress to implement the stockpile activity and it is within OFDA where those
management decisions ultimately reside. The budget for the commodity stockpile was
developed with several issues in mind: 1) the projected price of the commodities, 2) the
different types of commodities that may be needed, 3) the projected demand for
commodities, 4) the projected cost of delivery and storage of the commodities, 5) the
role of other donors, and 6) the need for a reserve of funds for unexpected commodity
needs. Given these issues and the uncertainty of the behavior of the virus, flexibility was
essential in the management of the stockpile. OFDA and the AI Unit reviewed the
financial reports on the stockpile on a regular basis. While it was known in December
2006 that approximately $19 million remained in the FOH Agreement, the report is
incorrect in asserting that those funds “could be deobligated and put to better use.”
Those funds were required for the continued distribution of commodities to whatever
country the virus attacked next and the replenishment of commodities as they were
consumed (i.e. more laboratory specimen kits were needed in addition to the original
estimate). Additionally, those funds were earmarked by the appropriations bill to be
used only for the “pre-positioning and deployment of essential supplies and equipment for
preparedness and response to the avian influenza virus”. To reallocate them for other purposes
would violate the Congressional intent.

The decision in 2006 to deobligate $10 million from the FOH agreement was because a
new mechanism for the delivery of the commodities was being developed (the Deliver
Task Order) and those funds were needed to transfer to that mechanism. Given the
nature of the threat posed by avian influenza it would have been highly inappropriate for
OFDA and the AI Unit to have shifted these funds to another purpose.

Action: The AI unit agrees that it is essential to continue reviewing unexpended
obligations and look for opportunities to deobligate funds when they are no longer
needed. The AI Unit will continue to do this on a quarterly basis as expenditures are
entered into AIMEBA. This recommendation is being addressed.




Avian influenza            unit     should       apply accounting              principles
consistently
Recommendation 4: We recommend that USAID’s Bureau for Global Health’s Avian and
Pandemic Influenza Management and Response Unit develop and implement
procedures to ensure that the obligations and expenditures reported in the Avian


                                                                                           37
                                                                            APPENDIX II

Influenza Monitoring and Evaluation Budget Analysis database are consistent with the
corresponding obligations and expenditures in the Agency’s core financial management
system at the end of any given accounting period.

Comment: The Avian Influenza Monitoring and Evaluation Budget Analysis database
(AIMEBA) was not designed to replace the Agency’s Phoenix accounting system but to
complement it. The AI Unit’s primary concern with the IG’s findings is that no recognition
is given to the differences in purpose and capabilities between the Phoenix and AIMEBA
financial systems and, therefore, the need for a complementary system such as AIMEBA
is completely missed. The two systems do occasionally report differences but these are
because they are tracking finances in different ways to meet their respective needs. It is
important to understand the differences and take these into account when reviewing the
systems. Some of the most important differences are:
•	 Phoenix is the Agency’s accounting system of record while AIMEBA is the financial
    tracking, management and reporting tool of the AI Unit. AIMEBA is capable of
    handling great levels of financial/programmatic detail allowing for programmatic
    oversight, course correction if necessary and Congressional reporting. These are
    functions that Phoenix cannot fulfill.
•	 Phoenix defines ‘expenditure’ as disbursement. AIMEBA defines ‘expenditure’ as
    vouchered expenses in addition to accruals.
•	 Phoenix data represents USAID partners’ regular or irregular partner voucher
    submissions. With Phoenix, partners can submit vouchers at any time to the Agency.
    AIMEBA contacts partners directly and requests expenditures four times per year.
    Thus, AIMEBA does not depend on the presentation of vouchers to determine
    expenditures levels and, thus, the regularity or irregularity in the way a partner
    vouchers becomes irrelevant as all accruals are included with expenditures.
•	 Lastly, Phoenix is designed to use the “First In, First Out” (FIFO) payment method.
    Many of our AI implementing partners are also working in other areas and receive
    funding from those areas – POP, HIV, ID – as well. The AI Unit must be able to
    report to various constituents (i.e., Congress and the Department of State
    Coordinators Office) on AI expenditures by appropriation and on how much remains
    in the pipeline. Further, AIMEBA must seamlessly include reprogrammed funds in
    any of its financial reporting. AIMEBA is able to avoid complications due to the co
    mingling of funds by querying implementing partners directly on the status of the AI
    funds that they have received. This level of detail is a requirement for statutory
    Congressional reporting for avian influenza. AIMEBA is capable of tracking financial
    information for all AI pillars including (1) Planning and Preparedness (2)
    Communications (3) Surveillance (4) Response and (5) Stockpile. Per instruction
    from Congress and from the State Department Avian Influenza Action Group,
    AIMEBA can and must associate all funding with these pillars, by country, and by
    appropriation and be able to report out in these terms/at this level of detail.

Action: The AI unit agrees that consistency in financial reporting is important and to
strengthen management control and address the differences between AIMEBA and the
Agency’s core financial system, the AI Unit has implemented the following changes:
    1. 	 The timing of the AIMEBA expenditure collection has been changed to match
         the accruals collection timeframe of the Agency’s core financial system.
    2. 	 The AI Unit budget coordinator is being trained in Phoenix and given access to it
         so that this person can fully monitor the system and see what information it is
         reporting



                                                                                       38
                                                                          APPENDIX II

    3. 	The AI Unit budget coordinator will analyze financial reports to account for
        differences between AIMEBA and the Agency’s core financial system and,
        where possible, reconcile the differences and report the source of the
        differences.
This recommendation is being addressed.


Recommendation 5: We recommend that USAID’s Bureau for Global Health’s
Avian and Pandemic Influenza Management and Response Unit develop and
implement procedures to ensure that staff responsible for reporting financial
information in the Avian Influenza Monitoring and Evaluation Budget Analysis
database are aware of USAID guidance and trained in the development of accruals.

Action: AIMBEA guidance is being updated and will be published by May 30, 2007.
This new guidance will include a section on ensuring consistency with the Agency’s
financial system. Additionally, the Budget Coordinator for the AI Unit has requested
greater access to Phoenix and NMS in order to facilitate the process of reconciling
expenditure data and accrual information. This recommendation is being addressed.



Avian influenza unit should improve commodity stockpile
management
Recommendation 6: We recommend that USAID’s Bureau for Global Health’s Avian
and Pandemic Influenza Management and Response Unit determine the optimal staging
areas for its bird flu commodities in order to meet specified timeframes.

Action: In March 2007, a contract was awarded to John Snow International for the
procurement, management and distribution of AI commodities. In July 2007, a trip is
planned to the Southeast Asia region to begin assessing the efficiency and effectiveness
of prepositioning AI commodities. By September 30, 2007 a policy on the use of staging
areas will be finalized. This recommendation is being addressed.


Avian influenza unit should review commodity requirements
Recommendation 7: We recommend that USAID’s Bureau for Global Health’s Avian
and Pandemic Influenza Management and Response Unit develop procedures to
periodically review and document its requirements for the procurement of commodities.

Comment:         The recognition of this panzootic and recurring human epidemic
underpinned the technical recommendations for the stockpile as a fully
considered, robust USG response. In face of an emerging pandemic threat, the
mounting of a response capacity which included the procurement of Virkon,
was technically indicated. This decision was extensively vetted within the agency, and
discussed with the UN's Senior UN System Coordinator for Avian and Human Influenza,
the WHO's Representative of the Director-General for Pandemic Influenza as well as
technical staff within the USG. These peer-review procedures were well-documented



                                                                                     39
                                                                                APPENDIX II

and are available to OIG investigators. This intensive process of review is an ongoing
process that is designed to maintain a stockpile of appropriate and effective
commodities. Since this review has been ongoing within the AI Unit and OFDA, the
inclusion of this recommendation without any discussion in the body of the report seems
somewhat gratuitous.

Action: The AI unit will continue to review the appropriateness of the commodities and
make changes as necessary given sound scientific evidence and the support of qualified
experts. This recommendation has been completed.


Recommendation 8: We recommend that USAID’s Bureau for Global Health’s Avian
and Pandemic Influenza Management and Response Unit review its commodity
stockpile inventory to ensure adequate product shelf life exists and document a plan
for final disposition accordingly.

Comment: The report is accurate in pointing out that the procurement of Virkon with
an expiration date of August, 2007 was never communicated to the AI Unit nor
OFDA. This was an error and under the new Deliver Task Order, the contractor has
been instructed to examine all products to determine if shelf life is an issue and if so
bring the item to the attention of the AI Unit for immediate action. With respect to
Virkon, an inventory of all Virkon containers remaining in the Atlanta warehouse was
conducted and it was discovered that 116 pails expire in August 2007, 1,044 in
December 2007, 232 in October 2008 and 8,016 in August 2009. Those pails that
are expiring soon will be either used prior to expiration or replaced. Another
consideration that the AI Unit is looking into is to submit the short shelf life product to
the U.S. Government’s Shelf Life Extension Program managed by the Department of
Defense (DoD) and the Food and Drug Administration (FDA). This program reviews
expired material to determine if it is still appropriate for use. In any event, proper
procedures will be followed to ensure that only effective and appropriate material is
being supplied.

The report also notes that “if all 2,000 decontamination kits shipped to Indonesia
contained disinfectant that was expiring in August 2007, this would represent a cost
of about $402,000.” First of all it needs to be noted that only 1,000 decontamination
kits were ever shipped to Indonesia. Second, a recent inventory of those kits by
FAO determined that on 19% of the remaining kits contained Virkon with an August
2007 expiration date. The remaining kits had Virkon with much latter expiration
dates. FAO has committed to use all these remaining 51 drums before August 2007
and so there is no loss to the USG.            The report seeks to draw unfounded
conclusions from inaccurate and incomplete data.

The report also incorrectly states the value of a drum of Virkon. The actual value is
$151 per 5 kg drum and not $201 as noted in the report. The total cost of the short
shelf life (expiration August 2007)Virkon identified during the inventory is $17,516.

Action: In March 2007, USAID awarded a contract to John Snow International (JSI) for
the management, procurement and distribution of commodities. Included in that is the
responsibility for ensuring adequate shelf life and disposing of expired products. The JSI
contract has already inventoried the expiration dates for the Virkon pails remaining in the



                                                                                              40
                                                                             APPENDIX II 


stockpile and provided recommendations. The continuous monitoring of expirable
products is a core deliverable under the JSI contract. This recommendation has been
completed.


Avian influenza unit should improve emergency shipment
timeliness
Recommendation 9: We recommend that USAID’s Bureau for Global Health’s Avian
and Pandemic Influenza Management and Response Unit’s develop a strategy for the
deployment of emergency bird flu commodities within established timeframes.

Action: The AI Unit and OFDA recognized the limitations of FOH in being able to ship
material on a timely basis and initiated the process to secure another contractor for this
purpose in late 2006. On March 21, 2007 USAID awarded a contract to JSI/DELIVER
which includes an emergency shipping component. As an interim measure during March
and April 2007, as the DELIVER Task Order was putting into place the processes for
meeting the delivery demands of the AI Unit, the AI Unit established an arrangement
with the Office of Acquisition and Assistance to utilize their emergency freight-forwarding
service in order to meet demands in a timely manner. During this period the AI unit sent
eight shipments using this service and all met the time requirements.                  This
recommendation has been completed.


Avian influenza unit should improve controls over commodity
transfers to ownership
Recommendation 10: We recommend that USAID’s Bureau for Global Health’s Avian
and Pandemic Influenza Management and Response Unit develop procedures to
adequately document the transfer of ownership of bird flu commodities.

Comment: While it is recognized that the first smaller commodity shipment to Indonesia
did not have the appropriate transfer documentation, the lesson was learned and the
subsequent and significantly larger shipment did have the appropriate documentation.
The report is incorrect when it states that “AI Unit officials transferred commodities
valued at $2.6 million outside of the USAID for use by program implementers without
proper documentation of the transfer of ownership”. The total value of commodities
shipped to Indonesia to date is $1,261,750. The only commodities that were shipped
without the full transfer documentation was the initial shipment of PPE valued at
$36,750. The remaining commodities valued at $1,225,000 have the full documentation
for transfer of ownership and those documents are available in Washington for
inspection.

Action: In March 2007, transfer documents were developed for a large shipment to
Indonesia. These documents will be the standard forms used for all commodity
provisions. This recommendation has been completed.




                                                                                        41
                                                                                                   APPENDIX III 




                  Global Risk of Avian Influenza Outbreaks 





                                                                                      Djibouti




     Source: Unaudited AI Unit data.

     Category 1         Category 2          Category 3                  Category 4               Category 5

       Endemic               Epidemic              High Risk             At-Risk                 Pandemic risk
Widespread and          Isolated bird flu      Proximal to endemic or    At risk of animal 
     At lower risk of animal
recurring bird flu      outbreaks in           epidemic                  outbreaks 
             outbreaks, but would
infections in           animals since          countries, or             due to bird 
           be affected by a
animals since Dec.      July 2005              at risk of animal         migration and/or 
      human influenza
2003                                           outbreaks due to bird     transport 
             pandemic
                                               migration and/or
                                               transport


 Areas affected: 
      Areas affected:        Areas affected:           Areas affected: 
       Areas affected: 

 South East Asia, 
     Indian                 Australia, Saharan        Southern Africa 
       North America, 

 Including China, 
     Subcontinent,          Africa (except for        (south of the 
         South America, 

 Indonesia, 
           Near East, Egypt,      Egypt), Central           Democratic 
            and Greenland. 

 Vietnam, 
             Sudan, Djibouti,       Africa, Central Asian     Republic of the 

 Cambodia, and 
        Togo, Ghana,           Republics,                Congo). 

 Thailand. 
            Nigeria, Niger,        New Guinea, Ireland,
                        Cameroon,              Belarus, Saudi
                        Burkina Faso,          Arabia, and Yemen
                        Ivory Coast,
                        Jordan, Iraq,
                        Kuwait,
                        Bangladesh,
                        Japan, and South
                        Korea


     Note: Areas affected refer to map above




                                                                                                                     42
                                                                 APPENDIX IV 



                           Priority Countries 

                                   For 

                        Avian Influenza Activities 




Bureau for Africa
      Nigeria

Bureau for Asia and the Near East
      Afghanistan
      Cambodia
      China
      Egypt
      India
      Indonesia
      Iraq
      Laos
      Pakistan
      Thailand
      Vietnam

Bureau for Europe and Eurasia
      Azerbaijan
      Romania
      Russia
      Turkey
      Ukraine

Bureau for Latin America and the Caribbean
      Mexico

Other Countries
      Canada




Source: Unaudited data from U.S. Homeland Security Council, dated May 3, 2006.




                                                                        43 

                                                          APPENDIX V 





                               Summary of 

                          Planned Funding Levels 





ACTIVITY                                                    FUNDING
                                                            (millions)

Stockpile
                                                                $56.3

Surveillance (Human and Animal)                                  51.2


Response (Human and Animal)                                      36.1


Communications                                                   25.2


Preparedness                                                     22.4


TOTAL Planned Funding                                          $191.2



Source: Unaudited AI Unit data, as of December 8, 2006.




                                                                   44
                                                                 APPENDIX VI




                             Avian Influenza
                          Stockpile Obligations



      DATE             OBLIGATING            PURPOSE            AMOUNT
                       DOCUMENT                                 (millions)



March 2006          Modification 1       Procure PPE/Fit test                20.3
                                         Kits, Freight

March 2006          Modification 2       Procure Decon/Lab                   13.5
                                         Kits, Freight

June 2006           Modification 3       Procure supplies,                   20.0
                                         Logistics/freight


TOTAL                                                                    $53.8




Source: Unaudited OFDA data as of December 11, 2006.




                                                                              45
                                                                     APPENDIX VII





          Personal Protective Equipment Distribution 

                 in China and Southeast Asia 





Source: Unaudited Regional Development Mission Asia data, as of February 1, 2007



                                                                                   46
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
